<html>
<title> - OVERSIGHT FIELD HEARING ON THE FUTURE OF THE U.S.-CANADA COLUMBIA RIVER TREATY, BUILDING ON 60 YEARS OF COORDINATED POWER GENERATION AND FLOOD CONTROL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








 THE FUTURE OF THE U.S.-CANADA COLUMBIA RIVER TREATY, BUILDING ON 60 
        YEARS OF COORDINATED POWER GENERATION AND FLOOD CONTROL

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

             Monday, December 9, 2013, in Pasco, Washington

                               __________

                           Serial No. 113-54

                               __________

       Printed for the use of the Committee on Natural Resources


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                    ______

                         U.S. GOVERNMENT PRINTING OFFICE 

85-957 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
         
         
         
         
         
         
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Raul R. Labrador, ID                 Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Mark E. Amodei, NV                   Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Chris Stewart, UT                    Vacancy
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------   
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on December 9, 2013.................................     1

Statement of Members:
    DeFazio, Hon. Peter, a Representative in Congress from the 
      State of Oregon............................................     3
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1

Statement of Witnesses:
    Amos, Paul, President, Columbia River Pilots, Portland, 
      Oregon.....................................................    47
        Prepared statement of....................................    48
    Brigham, Kathryn, Secretary Treasurer, Columbia River Inter-
      Tribal Fish Commission, Pendleton, Oregon..................    22
        Prepared statement of....................................    23
    Corwin, Scott, Executive Director, Public Power Council, 
      Portland, Oregon...........................................    29
        Prepared statement of....................................    30
    Crinklaw, Rick, General Manager, Lane Electric Cooperative, 
      Eugene, Oregon.............................................    37
        Prepared statement of....................................    38
    Eichenberger, Kathy, Executive Director, Columbia River 
      Treaty Review Team, BC Ministry of Energy and Mines, 
      Victoria, B.C..............................................    11
        Prepared statement of....................................    13
    Haller, Greg, Conservation Director, Pacific Rivers Council, 
      Portland, Oregon...........................................    42
        Prepared statement of....................................    44
    Kem, John, Brigadier General, U.S. Army Corps of Engineers, 
      Northwest Division, Portland, Oregon.......................     8
        Joint prepared statement of Elliott Mainzer and John Kem.     9
    Mainzer, Elliot, Acting Administrator, Bonneville Power 
      Administration, Portland, Oregon...........................     6
        Joint prepared statement of Elliott Mainzer and John Kem.     9
    McCart, Wes, Commissioner, Stevens County, Washington........    51
        Prepared statement of....................................    52
    Reimann, Ron, President, Columbia-Snake River Irrigators 
      Association; Commissioner, Port of Pasco, Kennewick, 
      Washington.................................................    41
    Webb, Tony, General Manager, Grant County Public Utility 
      District, Ephrata, Washington..............................    34
        Prepared statement of....................................    35

Additional Materials Submitted for the Record:
    Larsen, Rick, a Representative in Congress from the State of 
      Washington, Prepared statement of..........................     5
    McMorris Rodgers, Cathy, a Representative in Congress from 
      the State of Washington, Prepared statement of.............     4
                                     


 
OVERSIGHT FIELD HEARING ON THE FUTURE OF THE U.S.-CANADA COLUMBIA RIVER 
TREATY, BUILDING ON 60 YEARS OF COORDINATED POWER GENERATION AND FLOOD 
                                CONTROL

                              ----------                              


                        Monday, December 9, 2013

                     U.S. House of Representatives

                     Committee on Natural Resources

                           Pasco, Washington

                              ----------                              

    The committee met, pursuant to call, at 9:00 a.m., in Pasco 
City Council Chambers, 525 N. 3rd Avenue, Pasco, Washington, 
Hon. Doc Hastings [Chairman of the Committee] presiding.
    Present: Representatives Hastings and DeFazio.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. The Committee on Natural Resources will come 
to order, and the Chair notes the presence of a quorum, which 
under our rules are two members, and, as you'll notice, there 
are two members sitting here, so that satisfies our rule.
    The Committee on Natural Resources today needs to hear 
testimony on the future of the U.S.-Canada Columbia River 
Treaty, building on 60 years of coordinated power generation 
and flood control. And the way the process will work is Mr. 
DeFazio and I will each make an opening statement. We have two 
panels in front of us. The first panel is sitting to my right, 
and then we'll hear from them, then there will be an exchange, 
and then we'll hear from the second panel that is seated in 
front of you.
    I wanted to just make a note here on a personal level. The 
building that you're in used to be Pasco High School. It was 
Pasco High School, I think, from 1922 to 1953. And then after 
that, it was a junior high for another some 30 years. The 
reason I bring that up, because this is where I went to junior 
high, here in this building.
    And if I'm not mistaken, now, this looks nothing at all 
like what I remember, but I think that my seventh grade class 
was in this proximity. Now, I could be mistaken because there 
were a lot of changes, but I just wanted to make that note. 
This is kind of a historical area.
    I will now start with my opening statement. The field 
hearing on the Columbia River Treaty was purposely set here in 
the Tri-Cities because it is in the heart of the Columbia River 
Basin. The Columbia River has always been essential to our 
economy and our way of life, generating clean, renewable power 
to light our homes and businesses, providing fish and 
recreation opportunities, and providing irrigation for our 
crops and serving as a waterway to move goods from the interior 
of the Northwest to our markets overseas.
    The river also reminds us of its destructive powers. Sixty-
five years ago, 1948, devastating floods along the Columbia 
River wiped out the city of Vanport in Oregon and displaced 
thousands of people here in the Tri-Cities. And I do remember 
the flood of '48. That type of catastrophic flood is much less 
likely today in large part due to the Columbia River Treaty 
agreement with Canada and subsequent investments made in new 
dams by both countries.
    The 1964 Columbia River Treaty provided the framework for 
coordinated power generation and flood control between our two 
nations. Starting next year, either party can terminate the 
treaty with 10-year notice, and both countries are re-assessing 
the treaty to consider changes and develop recommendations for 
potential bilateral negotiations. We are pleased to have 
representatives of both the U.S. Entity, as well as the 
Canadian Entity, here to testify and to explain their views.
    This is timely, considering a final recommendation from the 
U.S. Entity to the State Department is anticipated later this 
month. In my view, it is essential that the final 
recommendation to the State Department focus on the two core 
functions of the treaty; power generation and flood control.
    The United States' power generation and operations have 
changed dramatically in recent decades, in large part to 
address fish concerns, leaving the formula for compensatory 
energy liberties to Canada under the entitlement outdated and 
in need of rebalancing. BPA estimates that the actual U.S. 
power benefit in coordination with Canada may be a tenth of 
what we deliver today under the current treaty terms.
    Adjusting the entitlement could save Northwest ratepayers 
millions of dollars annually and should be at the top priority 
for the State Department. It is obviously imperative that we 
reach an agreement on how flood control operations should work 
post-2024. As is the case elsewhere in the United States, and 
as was done historically in this case, compensation to Canada 
for this function is appropriately the responsibility of the 
Federal Government and not Northwest ratepayers.
    Some have advocated for adding ecosystem issues into the 
treaty as a third primary purpose. Negotiations with Canadians 
over the entitlement and flood control will be challenging 
enough as it is, without injecting vaguely-worded and 
contentious items, many of which can or already are being 
addressed appropriately through domestic processes.
    The Northwest Endangered Species Program for Columbia River 
salmon already costs several hundreds of millions of dollars 
each year, mainly out of the pockets of our region's 
ratepayers. Further, we should be encouraged that these efforts 
have contributed to near record returns this year, for example, 
for nearly one million fall Chinook salmon have returned this 
year.
    Ultimately, a collaborative biological opinion process, 
rather than ongoing litigation, is the appropriate way to 
address many of the ecosystem issues being proposed by some in 
the treaty context.
    While modest improvements have been witnessed in the U.S. 
Entity's draft recommendations, I continue to remain concerned 
that ecosystem issues continue to be overemphasized over the 
core treaty functions that plainly need to be addressed one way 
or another in bilateral discussions with Canada.
    It is my hope and expectation that the final recommendation 
from the U.S. Entity will make clear to the State Department 
that the priorities we need to address are, in fact, the 
entitlement and flood control.
    I have been working very closely with my colleague, Mr. 
DeFazio, on this issue. I will note that we do not always agree 
on every issue that comes before our committee, but on this 
issue we do share many of the same concerns. And I am committed 
to working with him on a bipartisan fashion so we can move 
forward with our oversight in this area.
    Some may say that because there is cooperation, especially 
in this political environment, that Mr. DeFazio and I have, 
that hell has frozen over. Maybe that explains the cold 
temperatures here today.
    So with that, let me welcome Mr. DeFazio, the Ranking 
Member of the House Natural Resources Committee, to my 
hometown. And I recognize him for 5 minutes for his opening 
statement.

   STATEMENT OF THE HON. PETER DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman.
    Thanks for holding this extraordinarily important hearing, 
essentially on the eve of the submission of the stakeholders' 
views to the State Department. Obviously the Columbia River is 
an extraordinary resource which we all love, although in many 
different ways. And it is a limited resource, despite when you 
look at it sometimes, particularly at spring flows, and you 
think this is an extraordinary and virtually unlimited resource 
and it can yet withstand many more demands. It's not, for the 
most part, true.
    It is very, very balanced at this point in time, and 
changes to that balance on either side of the border could have 
extraordinary ramifications, obviously, the worst of which 
would be floods, the others of which are economic, and then the 
third of which are those that relate to a continuing recovery 
of salmon and other benefits to the environment.
    It also is an extraordinary carbon-free source of 
electricity, again, running at many times on the margin as 
we're using BPA to balance winds, when wind is intermittent and 
today is nonexistent. We are benefiting from the hydro system 
and, you know, we need to keep all of that in mind as we move 
forward.
    Now, we have three options, as the Chairman mentioned. We 
could terminate the treaty. I hope it doesn't come to that, but 
if we can't resolve some critical issues, it may. In my 
opinion, Canada is pretty much running the system, except for 
some more long-term scheduling, to optimize their own benefits 
because their system has been built out since the original 
treaty was negotiated, which means that, I believe, as do many 
on our side of the border, that the entitlement is overly 
generous.
    I think we'll hear from their representative that they 
believe the entitlement is not adequate. But that's going to be 
a key point.
    You know, the affordability of electricity is a key issue 
in our region for our continued economic growth and prosperity. 
Then, second, of course, we have the issue of, which Doc 
mentioned, of floods. You know, there's a provision of going 
to, you know, call for--you know, called upon for flood 
control.
    Again, there are a lot of issues relating to the 
optimization of the Canadian system, which really have 
superseded some of our past concerns about floods, but there 
are times at which we will still need, certainly need their 
cooperation in times of potential for devastating downstream 
floods, the question is how should we pay for that.
    Do we pay on an annual basis, or do we pay at time of 
called upon, or do we have some combination of those two. 
That's something that will be resolved through what I think 
will be some difficult negotiations.
    And then, finally, as the Chairman mentioned, there's a 
question of ecosystem function. We are operating the system at 
this point for ecosystem function. We have dramatically 
modified the regime of the operation of our hydroelectric 
system. We are having excellent returns of salmon, and the 
trend line has been good for some time.
    That doesn't mean we can't further improve upon that, but 
these issues for the most part relate to our domestic laws, our 
Endangered Species Act, you know, and other laws of the United 
States of America.
    As I often reflect and say to my colleagues in Washington, 
who sometimes have BPA envy, particularly the Northeast, 
Midwest caucus, and others who are suffering under higher 
electric rates, when they launch their attacks on us as being a 
subsidized system that should pay more and give money to the 
treasury, which has happened almost under every administration 
I have served under, is, you know, the fact that this system is 
really being operated in a way that we are carrying, unlike any 
other region of the United States of America, our own--our own 
costs for regional endangered species recovery.
    There's no other place in the country where a State or a 
region is paying for it. The Federal Government's paying for 
it, for the most part. So that is something we need to keep in 
mind as we move forward, is, you know, the break point on how 
much of that we carry versus what is the Federal obligation 
here, if there are to be further demands on us for Endangered 
Species Act recovery. I look forward to hearing about those 
issues, and any others that the two panels will bring before us 
today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, gentlemen, for your statement. I 
have two letters here, one from our colleague Cathy McMorris 
Rodgers in the district next door and another from our 
colleague Rick Larsen from the northwestern part of the State. 
They have statements that they wanted to be part of the record. 
Without objection, they will be part of the record.
    [The prepared statements submitted for the record by the 
Chairman follow:]
       Prepared Statement of Congresswoman Cathy McMorris Rodgers
    I appreciate the opportunity to submit a statement before the House 
Natural Resources Committee regarding the importance of the United 
States-Canada Columbia River Treaty and its effect on Eastern 
Washington.
    Eastern Washington and the Pacific Northwest depend on a healthy 
Columbia River system to provide national energy independence, promote 
public safety, and protect infrastructure. In addition, the Columbia 
River plays a vital role in the economy of the Pacific Northwest, 
promoting increased economic growth and development by providing low-
cost energy, specifically hydropower, and dependable irrigation and 
navigation channels.
    For the last 60 years, the Columbia River Treaty has provided a 
framework for the United States and Canada to promote the production of 
clean, renewable, and affordable hydropower. Hydropower is not only 
vital to Eastern Washington but Washington State gets over 75 percent 
of its power from this clean and renewable source of energy. In Central 
and Eastern Washington, the Columbia and Snake River system through 
irrigation, transformed a dry, barren desert with sagebrush to one of 
the most productive agriculture regions in the world. The low price of 
hydropower brought high tech companies like Google and Yahoo to 
relocate their servers here and brought manufacturing facilities like 
the BMW plant in Moses Lake. In addition, the Columbia River Treaty has 
provided greater protection for the Pacific Northwest against severe 
flooding.
    For the past few years, Bonneville Power Administration and the 
U.S. Corps of Engineers, along with key stakeholders including 
representatives from Washington, Oregon, Idaho, and Montana, 
representatives from 10 Federal agencies and 15 Native American Tribes 
have been reviewing the provisions contained in the Columbia River 
Treaty. I applaud the time and effort they have given to this process. 
As the United States continues to work through the future of the 
Columbia River Treaty with Canada, I want to ensure that the treaty 
reflects the true needs of the Pacific Northwest and Eastern 
Washington.
    Specifically, as we consider updating the Columbia River Treaty, we 
need to modernize the original goals to make power generation, flood 
control, and overall water management more efficient. It is important 
that neither the United States nor Canada insert additional domestic 
goals independent of the original purpose of the Treaty. Moving 
forward, it is also important that the Columbia River Treaty addresses 
the need to rebalance the payments to Canada for downstream power 
generation benefits and long-term flood control operations. With 
assured flood control set to expire in 2024, it is important that the 
United States and Canada agree to a framework for how future flood 
control needs will be addressed.
    Eastern Washington depends on a healthy Columbia River system to 
provide low-cost energy, irrigation, and navigation. As such, I want to 
ensure that as we consider modernizing the Columbia River Treaty, it 
promotes a more cost-effective, sustainable hydropower system, in 
addition to providing reliable flood risk management plan.

                                 ______
                                 

             Prepared Statement of Congressman Rick Larsen
    Thank you for the opportunity to provide a statement for the House 
Natural Resources Committee's field hearing on the Columbia River 
Treaty (CRT). While I could not be with the Committee today, renewal of 
the CRT is very important to many groups in my district and I 
appreciate the Committee's attention to this issue.
    The Columbia River does not reach my district, but it has far-
reaching effects on my constituents. It provides affordable, clean 
hydropower to ratepayers in Everett, it provides salmon for fishers in 
Anacortes, and it provides the power that supports aluminum 
manufacturing jobs in Whatcom County. For all these reasons, it is 
critical to continue mutually beneficial management with Canada of the 
Columbia River.
    I appreciate the work the U.S. Entity has done in creating a public 
process to make a consensus recommendation to the Department of State 
regarding the CRT. The Entity's draft recommendation makes it clear 
that there are improvements that can be made, most importantly noting 
that U.S. ratepayers are paying more than their fair share for the 
incremental power benefit from the coordinated U.S.-Canada management 
of the river. Any changes to the Treaty should benefit these ratepayers 
and should not increase their costs.
    I am hopeful that in their final recommendation, the U.S. Entity 
fully reflects the diverse interests and priorities of rights holders, 
as well as other beneficiaries and users of the Columbia River--
including Native American tribes, ratepayers, businesses, water users, 
ports, recreational users, navigation interests and downriver 
residents. It is vital that future management decisions surrounding the 
Columbia River are made in a consensus way by the communities in the 
Pacific Northwest, not by officials 3,000 miles away in Washington, DC. 
The Northwest delegation has repeatedly made it clear that the 
complicated issues around the Columbia River are best settled by our 
constituents who live and work here. I believe the administration 
understands this, and I know this emphasis will remain a key priority 
for both the Chairman and Ranking Member.
    Considering the Columbia River Treaty was written at a time when 
color TV was a thing of the future, it certainly can be modernized. The 
addition of ecosystem benefits as a key part of the treaty has 
potential to provide new benefits for fish habitats and meeting tribal 
treaty responsibilities. However, we should not overlook the decades of 
effort and billions of dollars that have already been invested in 
salmon restoration. That money comes from folks who pay their 
electricity bill every month and have a number of other bills to pay 
for. As a result, this year's salmon returns to the Columbia River are 
at record levels. Any new ecosystem improvements being suggested should 
be clearly defined, and the costs and funding sources for any of these 
improvements should be closely detailed.
    We should also know who is paying for those improvements. I do not 
believe that we should pass additional costs for ecosystem benefits on 
to everyday folks who are already paying $700 million each year through 
BPA for similar efforts. We should not offer a blank check to ill-
defined ``ecosystem'' measures without being completely clear about the 
specific goals, legal responsibilities and scientific backing for such 
measures.
    Thank you again for your leadership on this issue. I look forward 
to working with you to ensure a regional approach to ensure the 
Columbia River Treaty is a continued success.

                                 ______
                                 

    The Chairman. I now want to welcome our first panel seated 
here immediately to my right. Mr. Elliot Mainzer is the Acting 
Administrator of the Bonneville Power Administration out of 
Portland, Oregon. Brigadier General John Kem is a Commander of 
the U.S. Army Corps of Engineers, Northwest Division, also out 
of Portland, Oregon. We're very pleased to have Kathy 
Eichenberger, Executive Director of the Columbia River Treaty 
Review Team, BC Ministry of Energy & Mines out of Victoria, 
British Columbia.
    Let me explain how these timing lights work. Both of you--
in fact, I'll say this for all of the panel. You've all 
submitted a statement for the record, and your entire statement 
will be part of the record. So what I'd like to ask you to do 
is to keep your oral remarks within 5 minutes.
    And the way that timing light works, it's very similar to a 
traffic light. When the green light is on, that means you're 
just going very, very well, but when the yellow light goes on, 
it means you've got to speed up before you get to the red 
light. If you can keep your remarks within that timeframe, that 
would be very, very helpful.
    So with that, Mr. Mainzer, I recognize you for 5 minutes 
for your opening statement.

 STATEMENT OF ELLIOT MAINZER, ACTING ADMINISTRATOR, BONNEVILLE 
             POWER ADMINISTRATION, PORTLAND, OREGON

    Mr. Mainzer. Thank you very much, Chairman Hastings and 
Ranking Member DeFazio.
    It is a pleasure to be here this morning. Thanks for the 
opportunity to discuss the Columbia River Treaty review. I am 
Elliot Mainzer, the Acting Administrator of the Bonneville 
Power Administration and the chair of the U.S. Entity. I am 
very pleased to be joined here also this morning by Brigadier 
General Kem and nice to see Kathy Eichenberger. Both of them 
are going to be very important partners as we work through 
these very complex issues in the months ahead.
    Since the Columbia River Treaty was ratified in 1964, it 
has provided significant benefits for both Canada and the 
United States. It has helped provide assured stream flows that 
support the region's hydropower system, which is clearly a 
central underpinning of the region's economy, and the treaty 
has assisted in effectively managing flood risk to ensure 
public safety and to facilitate regional development.
    Over the past 20 to 30 years, we've also used the 
operational flexibilities within the treaty to implement 
operations designed to specifically address--to specifically 
benefit the Columbia Basin ecosystem in both countries. These 
actions include an annual agreement to move one million acre 
feet of water releases from the winter to the spring and early 
summer period.
    In addition, through non-treaty storage agreements, we've 
designed mutually beneficial operations that better support 
ecosystem function and power production in dry years. We are 
now presented with an opportunity to do even better. In 2024, 
even though the treaty continues, certain aspects will change.
    This gives us the chance to have a conversation with Canada 
on how we might want to modify treaty operations after 2024 to 
improve the benefits to the region in a way that reflects 
today's conditions and today's values and better prepares us 
for the future. To that end, we've been administering the 
treaty review process to collect regional perspectives to 
assist us in developing a consensus recommendation that will 
advise the U.S. State Department on potential concepts to 
consider negotiating with Canada and to modernize the treaty.
    After considering an extremely wide range of regional 
perspectives and working through many challenging issues, we 
believe it is possible to develop a win-win-win approach in 
which power, flood risk management, and ecosystem interests all 
benefit from a modernized and rebalanced Columbia River Treaty. 
Let me briefly describe how.
    First, the methodology originally included in the treaty 
for calculating Canada's share of power benefits is now 
outdated and we do not believe it is any longer equitable, 
resulting in excessive power costs to U.S. ratepayers. The 
methodology is outdated, it used assumptions which were based 
off 1960 projections of load growth and resource development, 
and we clearly believe that this imbalance needs to be re-
addressed.
    Second of all, while it appears that regional interests are 
coalescing around the objective of including ecosystem-based 
operations as a primary purpose in the post-2024 treaty, we 
understand that there have been significant concerns regarding 
this potential change and whether such inclusion would create 
additional cost for Pacific Northwest ratepayers. We've been 
acutely sensitive to these concerns in our work with regional 
interests.
    At heart, the Columbia River Treaty is an agreement to 
coordinate the storage and release of water from the treaty 
reservoirs for the mutual benefit of the United States and 
Canada. Initially, power and flood risk management were the 
only two reasons we did this coordination; however, over the 
past 20 years, we've worked with Canada under the treaty to 
mutually agree on storing and releasing water for both Canadian 
and U.S. ecosystem purposes.
    The U.S. Entity's view is that it is appropriate and 
helpful to formalize and gain more certainty for these 
operations, as opposed to having to negotiate them on a one-
off, ad hoc basis. I do want to be clear, however, that while 
we support the inclusion of ecosystem-based operations in the 
treaty, the implementation of ecosystem-based functions should 
be compatible with rebalancing the entitlement and reducing 
U.S. power costs and maintaining an acceptable level of flood 
risk in the basin. This notion of a win-win-win is essential to 
our recommendation.
    Third, I note that fundamentally we're dealing with a water 
management and allocation issue. There is no new source of 
water, just a debate about the timing and the storage and 
release of water that will flow out of Canada. Although some 
will argue for a dramatic shift in water flows back to a 
natural hydrograph in support of ecosystem functions, we're not 
supportive of such significant change because our analysis 
demonstrates that it would result in very significant 
hydropower losses and higher flood risk for the region.
    That being said, we also believe that there are potential 
ecosystem benefits of gaining assurance of the spring flow 
augmentation and dry year strategies we've developed to date 
and to development mechanisms to adapt in the face of potential 
changes in the region's climate.
    In conclusion, we believe it is possible to achieve a win-
win-win if we work together to rebalance and reduce the U.S. 
power return obligation to Canada to find a rational, 
collaborative program that maintains an acceptable level of 
flood risk for the United States and formalize the ecosystem-
based function operations that have been occurring by mutual 
agreement under the treaty.
    Thank you very much.
    The Chairman. Thank you very much. I appreciate your 
timeliness of that, too. That could be a template here for the 
rest of the hearing.
    General Kem, you are recognized for 5 minutes for your 
statement.

 STATEMENT OF BRIGADIER GENERAL JOHN KEM, COMMANDER, U.S. ARMY 
    CORPS OF ENGINEERS, NORTHWEST DIVISION, PORTLAND, OREGON

    General Kem. Thank you, Mr. Chairman, Ranking Member 
DeFazio. It's great to be here this morning. Good morning to 
everyone.
    I'm pleased to be before the committee to discuss the draft 
regional recommendation regarding the future of the treaty 
after 2024 in its still ongoing review process. We appreciate 
the interest this community has shown toward this very 
important matter. We've provided a written statement, so I'm 
not going to repeat all of it, but I'd like to highlight a few 
things and emphasize a few things that my partner, Elliot 
Mainzer, just said.
    The committee is already fully aware of the history of the 
original treaty and the benefits it provides to both countries. 
From the outset, the coordinated operations--and that's the key 
word--the coordinated operations between both countries for the 
storage and release of water has been a crucial backbone for 
the Pacific Northwest and both countries, and for the United 
States in particular in managing flood risk and supporting the 
region's hydropower system.
    For the past 50 years, this coordinated operation for the 
storage and release of water has been essential in ensuring 
public safety and continuing to facilitate regional development 
in the overall regional economy. The message that we have heard 
the most during this multiyear, really about a 3-year regional 
review process, is that there is a strong regional interest to 
modernize the treaty and to bring about a better, more balanced 
benefit to the region.
    Like almost any issue, there's an eclectic mix of interests 
and different viewpoints on how to achieve them. I have to say 
the Entity is not advocating some interests ahead of others. We 
are receiving a strong regional consensus, and have attempted 
to recognize key interests of wide constituencies.
    Probably the one area that is still most sensitive, and it 
has already been mentioned, rests with the fact that we include 
a recommendation to pursue the ecosystem function as a primary 
purpose. From my perspective, I want to make it clear this was 
done not to promote one set of interests over another, or by 
adding it we seek to advantage or negatively impact any other 
interests. Rather we added it in the draft to incorporate the 
context of how we actually conduct coordinated operations 
today.
    The fact is we coordinate with Canada for the storage and 
release of water for three purposes: flood control, hydropower, 
and ecosystem functionality. That's what we do now. So it makes 
sense from my view to formalize that and stop doing it on an 
annual, less predictable basis, and under a process that leads 
to significant transaction costs.
    In conclusion, I think there's a strong regional consensus 
to modernize and rebalance the Columbia River Treaty and 
achieve a win-win-win to the Pacific Northwest region.
    Thank you for the opportunity to highlight these few 
topics. I'm happy to answer questions at the appropriate time.
    [The joint prepared statement of Mr. Mainzer and General 
Kem follows:]
   Joint Prepared Statement of Elliot Mainzer, Acting Administrator, 
Bonneville Power Administration, Portland, Oregon and Brigadier General 
      John Kem, Commander, United States Army Corps of Engineers, 
                Northwestern Division, Portland, Oregon
    Good morning, Mr. Chairman. My name is Elliot Mainzer, and I am 
Acting Administrator of the Bonneville Power Administration. In that 
capacity, I serve as the Chairman of the United States Entity for the 
Columbia River Treaty (Treaty). Brigadier General John Kem, as the 
Commander for the Northwestern Division of the United States Army Corps 
of Engineers, is the Member of the United States Entity.
    Together, we are pleased to be before the Committee to discuss the 
Draft Regional Recommendation regarding the future of the Columbia 
River Treaty after 2024 and the regional review process underway to 
inform a final recommendation. We appreciate the interest this 
Committee is showing toward this matter. We should note that our 
testimony reflects the status of the process we are coordinating in the 
region on this matter and does not represent any final Administration 
recommendations.
    The Columbia River Treaty is a successful example of a 
transboundary water treaty and serves as a model for other 
international water coordination agreements. Over the years since the 
Columbia River Treaty entered into force in 1964, it has provided 
benefits for the Pacific Northwest and both countries. It has enabled 
us to coordinate streamflows, and thereby helped us manage flood risks 
and generate hydropower. The U.S. Entity also uses the flexibilities 
within the Treaty to work with our Canadian counterparts to implement 
operations designed specifically to benefit the Columbia Basin 
ecosystem in both countries. To ensure we can successfully convey the 
interests of the region, the U.S. Entity, through the regional review 
process known as the Columbia River Treaty 2014/2024 Review, has 
engaged throughout the region and is striving to garner support for a 
regional recommendation.
    The message we have most heard during the multi-year regional 
review process is that it is in the best interest of the region to 
modernize operations under the Treaty to bring about better and more 
balanced benefits. As we are developing a regional recommendation, the 
U.S. Entity has listened closely to the many diverse voices in the 
region about how to reflect their respective interests in the 
recommendation.
    While many in the region appreciate the benefits that have flowed 
from the Treaty, there is widespread concern in the U.S. that the 
method included in the Treaty for calculating Canada's share of the 
Treaty's power benefits is not equitable. There is interest in 
providing flood risk reduction for public safety through agreement with 
Canada on how we can implement continued, mutually agreeable, 
coordinated flood risk management operations.
    There is also a strong desire by many to more formally incorporate 
ecosystem-based functions into the implementation of the Treaty and to 
recognize evolving interests in other water management issues in the 
Columbia River Basin. There is also growing interest in mechanisms that 
are more adaptive, flexible, and resilient to successfully meet the 
challenges presented by increased demand for water and the uncertainty 
of climate change impacts on Columbia River flow volume, timing, and 
variability in the next several decades.
    We believe that through our extensive collaboration efforts we have 
assisted the region to find a middle ground that attempts to recognize 
and balance all of these viewpoints and interests in the region. We 
believe that it is possible to simultaneously:

    <bullet> Reduce the U.S. obligation, paid by Northwest ratepayers, 
            to return power to Canada that reflects the actual value of 
            coordinated power operations with Canada.
    <bullet> Define a workable approach to flood risk management that 
            will continue to provide a similar level of flood risk 
            management to protect public safety and the region's 
            economy;
    <bullet> Contribute to a more comprehensive ecosystem-based 
            function approach throughout the Columbia River Basin 
            watershed by formalizing and providing greater certainty 
            for ecosystem actions already being undertaken so that they 
            complement the existing ecosystem investments in the 
            region; and
    <bullet> Pursue operational flexibility necessary to respond to 
            climate change, and other future potential changes in 
            system operations while continuing to meet authorized 
            project purposes such as irrigation and navigation.

    In essence, the Draft Regional Recommendation seeks to further 
improve on operations that are already in place, while also making them 
more adaptable to address current and future needs of the region. 
Through this approach, we hope to achieve a collective net ``win'' for 
the Pacific Northwest on all fronts.
    While we believe that regional interests are coalescing around this 
approach, we understand that there have been some questions, 
particularly regarding formalizing inclusion of ecosystem based 
functions, and whether such inclusion will create an additional cost 
for the U.S. and thus Pacific Northwest ratepayers. The Treaty provides 
a process for the U.S. and Canadian Entities to coordinate the storage 
and release of transboundary waters from the Treaty reservoirs for the 
mutual benefit of both countries. Initially, power and flood risk 
management were the basis for this coordination. However, over the past 
20 years we also have worked with Canada to mutually agree on storing 
and releasing water for both Canadian and U.S. ecosystem purposes.
    The U.S. Entity's view is that it is appropriate to formalize and 
gain more certainty for these operations. At the same time, we 
recognize that over the past 20 years both the Canadian and U.S. 
management and use of this mutual water resource has become more 
focused over time on in-stream and out-of-stream uses, while fulfilling 
our commitments for power production and flood risk management. The 
U.S. Entity acknowledges the need for continued support for these 
existing purposes and intends to ensure that the incorporation of 
ecosystem-based functions would not prevent the region from achieving 
its objective of rebalancing and reducing U.S. power costs and would 
retain an acceptable level of flood risk.
    Although we believe our draft recommendation will represent a 
positive balance of regional interests, we recognize that it will still 
concern certain stakeholders. To address those concerns, we recommend 
including mechanisms to promote further dialog and minimize the risk of 
unintended consequences. These mechanisms include proposing a number of 
domestic processes through which U.S. interests can address complex 
issues that are currently beyond the purview of the Treaty.
    Throughout the Columbia River Treaty 2014/2024 Review process, the 
U.S. Entity has consulted extensively with regional sovereigns, 
stakeholders, and the public. A key component of the review process has 
been collaboration with the Sovereign Review Team (SRT), which 
comprises designated representatives from the States of Washington, 
Oregon, Idaho, and Montana, Federal agencies, and Pacific Northwest 
Tribal Governments. The Entity also conducted ongoing government-to-
government consultation meetings with the Pacific Northwest tribes 
represented on the SRT, as well as with the Confederated Tribes of the 
Grande Ronde. In addition, the U.S. Entity has heard from and 
understands the perspectives of the regional stakeholders through 
individual meetings, workshop sessions, panel discussions and 
presentations, and public comment periods. Our goal throughout this 
process has been to be inclusive and transparent with sovereigns, major 
river interests, and the general public.
    These regional discussions led to the U.S. Entity's release of an 
initial working draft of a recommendation for regional interests to 
review in June 2013. The U.S. Entity conducted 14 public listening 
sessions around the Pacific Northwest to inform and collect public 
comment on the working draft recommendation. The U.S. Entity also 
worked closely with regional stakeholders and the SRT to hear 
viewpoints and obtain specific input concerning the working draft 
recommendation. On September 20, 2013, the U.S. Entity released the 
Draft Regional Recommendation for additional review and comment. As 
described earlier, the Draft Regional Recommendation reflects 
sovereign, stakeholder, and public input and seeks a collective ``win'' 
for the region.
    As part of the review of the Draft Regional Recommendation, we held 
another five public meetings during October throughout the region. We 
also continue to meet and work with numerous parties interested in the 
Treaty's operation. The Administration has asked us to deliver the U.S. 
Entity's recommendation by the end of this year. Accordingly, our goal 
is to deliver to the U.S. Department of State a final Regional 
Recommendation that enjoys broad regional support in December 2013. The 
U.S. Entity recognizes the importance of continuing to engage all 
interested regional parties as we work toward that goal.
    Mr. Chairman, this concludes our prepared remarks. We would be 
happy to respond to any questions from the Committee.

                                 ______
                                 

    The Chairman. Thank you very much, General Kem. And last on 
the first panel, Ms. Kathy Eichenberger, Executive Director of 
the Columbia River Treaty Review Team in Canada. You're 
recognized for 5 minutes.

 STATEMENT OF KATHY EICHENBERGER, EXECUTIVE DIRECTOR, COLUMBIA 
  RIVER TREATY REVIEW TEAM, BC MINISTRY OF ENERGY AND MINES, 
                   VICTORIA, BRITISH COLUMBIA

    Ms. Eichenberger. Thank you, Mr. Chairman, and thank you 
for inviting the province to share our perspectives with the 
committee and with the audience. I hope that our views will be 
helpful to everyone here.
    My name is Kathy Eichenberger, and I'm the Executive 
Director of the Columbia River Treaty review for the province. 
We're leading the review in Canada because of the agreement 
with Canada in '63 that transferred most of the obligations and 
benefits of the treaty to the province.
    The Columbia River Treaty is known worldwide as a model to 
emulate of cooperation for public safety and energy, but also 
has demonstrated, as we've heard, the flexibility to address 
environmental and other interests. And as we look at the future 
of the treaty and ponder the different choices that we have, we 
need to understand what those choices are and what other 
interests and benefits accrue from the treaty beyond flood 
control and beyond power production.
    It is also important to understand the ongoing 
environmental, economic, and social impacts that occur in 
Canada to meet the U.S. requirements under the treaty and also 
what is the risk if the treaty is terminated.
    We believe that the coordinated management of the river 
flows and storage reservoirs has produced the intended 
objectives. It has worked for preventing the damaging floods 
and also for maximizing the potential to produce hydropower, 
but it has also provided these extra benefits for ecosystems, 
for navigation, for water supply, and for recreation. But not 
many people understand those current benefits and how they can 
be enhanced or how new benefits can be created between the two 
countries.
    Half of the available flood storage in the Columbia is in 
Canada, and as a result, there were no major floods once these 
storage operations became functional. In fact, in 1 year alone, 
two billion dollars of flood damage was avoided as a result of 
cooperation under the treaty.
    In 2024, we've heard that the assured flood risk management 
changes to a more ad hoc called upon flood control, which we 
believe doesn't make the best use of existing facilities and 
also increases flood risks throughout the system and also the 
risk of reservoirs not achieving refill. Currently, the United 
States and Canada don't agree on how called upon would be 
implemented.
    We believe that all of the reservoirs that can be used to 
reduce flood risk in the U.S. need to be drafted deeper than is 
currently before calling upon Canada. But we think that, and 
we're open to discussing a better arrangement that makes better 
use and that does provide that security and that certainty for 
both countries.
    We believe that the treaty has provided and has hydropower 
production in the United States and in Canada and it provides 
predictable and reliable flows that translates into firm energy 
to meet customer needs and for all times of the year, including 
cold weather like we are experiencing today or also--and often 
not as recognized, during the hot, dry summers where flows are 
reduced and where flow augmentation from Canada serves a 
multitude of purposes.
    Treaty operations are designed to maximize incremental 
power in the United States, and so the province doesn't believe 
that it should be negatively impacted for water allocations 
that are made in the United States for other purposes.
    We also believe that the flexibility within the treaty has 
allowed change in operations for ecosystem values, including 
U.S. salmon recovery, by remitting flows in the spring to try 
and mimic the natural hydrograph, but also during late summer 
and during dry years, when it's so critical for fish survival. 
And as climate change predictions foresee hotter and dryer 
conditions, this is only going to become more important.
    But we do believe and we agree that we don't need to change 
the treaty to do more for ecosystems on both sides of the 
border.
    Coordination under the treaty also benefits navigations by 
reducing very high flows and by supplementing drafts during the 
summer that reduces dredging costs and risks of grounding. We 
also think that water supply interests are benefiting from how 
the reservoirs and flows are managed, to ensure that reservoirs 
aren't drafted too deep to not meet intake elevations, but also 
reduce pumping costs, and also, again, during that dry period 
where additional flow shaping is very beneficial to a suite of 
U.S. interests, including water supply, which is going to 
become more critical.
    A climate change in the future predicts that in Canada, the 
basin is going to have equal or greater inflow or 
precipitation, but that's not the case in the United States. 
It's predicted that 40 percent of flows might be reduced from 
what is happening currently. And so we think that cooperation 
and management of reservoirs and flows between the two 
countries is going to be critical in managing and adapting to 
climate change impacts.
    So as we continue to review the treaty, we think it's 
important that on both sides legislators understand how the 
treaty is beneficial, how these benefits can be enhanced, how 
new benefits can be created, and what's the risk if the treaty 
is terminated.
    We have a draft recommendation to continue the treaty and 
to seek improvements supplemented by guiding principles that 
have been endorsed by a majority of the stakeholders and 
citizens in British Columbia, and we look forward to hearing 
the outcome of the U.S. treaty review. And thank you for the 
opportunity.
    [The prepared statement of Ms. Eichenberger follows:]
Prepared Statement of Kathy Eichenberger, Executive Director, Columbia 
River Treaty Review, Ministry of Energy and Mines, Province of British 
                                Columbia
    Good afternoon, Mr. Chairman. My name is Kathy Eichenberger and I 
am the executive director of the Columbia River Treaty Review for the 
Province of British Columbia's Ministry of Energy and Mines. I want to 
thank you for inviting the Province of B.C. to share some of our 
perspectives on the future of the Columbia River Treaty which we hope 
your committee will find useful.
    The Columbia River Treaty is known throughout the world as one of 
the most successful models of transboundary water management, providing 
a framework for cooperation on energy and public safety, while 
demonstrating flexibility in addressing environmental interests. This 
agreement is seen as a benchmark on cooperation to create and share 
benefits that other jurisdictions wish to emulate.
    The Treaty has made the Columbia River system into a North American 
clean energy powerhouse. The 14 hydroelectric dams on the Columbia's 
main stem and many more on its tributaries produce more hydroelectric 
power than on any other North American river. The Treaty has also 
prevented devastating floods in the United States which was the other 
original impetus behind the Treaty. The Treaty has served both 
countries well for almost 50 years and it's now an appropriate time for 
it to be reviewed on both sides of the border, especially in light of 
intensified concern about climate change and climate change impacts.
    In Canada, like in the United States, the Federal Government is 
responsible for international treaties. As such, the Columbia River 
Treaty is an agreement between our two countries which was entered into 
by our two federal governments of the time. In Canada, the provinces 
have certain constitutional responsibilities, including in areas such 
as natural resources, which includes hydropower development. Ninety-
four percent of the territory of British Columbia is public land, which 
we call provincial Crown land. The Columbia River Basin in Canada falls 
entirely within the territory of the Province of BC. Reflecting these 
realities, in 1963 a Canada-British Columbia Agreement was put in place 
that transferred most of the obligations and benefits of the Treaty to 
the Province.
    The Province of BC is therefore leading the Treaty Review on the 
Canadian side. We are working closely with Canada to ensure a 
coordinated approach to the Treaty Review. The Province is also 
engaging First Nations, local governments and citizens throughout the 
Canadian Columbia basin who have been and continue to endure 
significant environmental, social and economic impacts from the Treaty. 
The provincial Treaty Review Team expects to present options on the 
future of the Treaty to our Provincial Cabinet in December.
    As both Canada and the United States continue to review options 
regarding the future of the Treaty, it is important to ensure that 
citizens on both sides of the border have a full understanding of the 
scope of the issues that need to be considered, balanced and managed. 
The implementation of the Treaty, especially over the last 20 years, 
has been a careful balancing act of many interests and issues crafted 
by studies and negotiations between the U.S. and Canadian Entities.
    It is important to understand how the Treaty helps and the benefits 
it creates, and also how further cooperation can enhance or create new 
benefits. It is also important to understand the ongoing cost to 
environmental, social and economic interests in Canada to meet U.S. 
requirements and what is at risk if the Treaty is terminated, 
especially as we enter an era of intensified climate change impacts.
    British Columbia believes that the coordinated management of river 
flows and storage reservoirs has produced the intended objectives of 
flood management and the opportunity to maximize hydro-electric power 
production on both sides of the border. We have also identified a wide 
range of additional benefits from Treaty operations to interests such 
as ecosystems, navigation, water supply and recreation. Yet through our 
consultations, we have also discovered that these existing and future 
benefits under the Treaty are not well understood.
                         flood control benefits
    Half of the available flood storage in the Columbia Basin is 
located in British Columbia. Since the Treaty storage became 
operational, there has never been a flood causing major damage along 
the Columbia River. In fact, coordinated flood control avoided $2 
billion in potential damage in the United States in one year alone 
(2011).
    In 2024, regardless of whether the Treaty continues or is 
terminated, assured flood control operations change to a more ad hoc 
``called upon'' flood control regime. This means that--if no other 
arrangement is in place--all U.S. reservoirs that are able to reduce 
damaging flood flows will need to be drafted deeper than is current 
practice before Canada can be ``called upon'' to provide additional 
assistance. British Columbia is open to discussing alternative 
coordinated flood risk management arrangements that would make better 
use of existing facilities, increasing certainty of operations and 
avoiding negative impacts to U.S. interests.
    At this time, the Canadian and U.S. Entities disagree on how called 
upon flood control would be implemented, particularly with regard to 
which U.S. reservoirs would be affected and when to call upon Canada. 
Regardless of this disagreement, BC believes that called upon flood 
control will increase the flood risk on the system and the risk of U.S. 
reservoirs not being able to refill, with potential negative 
consequences for a number of U.S. interests, such as fisheries, 
ecosystems, power production and water supply.
                       power generation benefits
    The Treaty has significantly enhanced hydropower production in the 
U.S. and continues to provide predictable and reliable flows that 
translate into firm energy so that utilities can meet their customer 
loads during all periods of the year, including cold winter and dry hot 
summers. Treaty operations are designed to maximize incremental power 
production in the United States. British Columbia believes that it 
should not be negatively impacted by water allocation choices made in 
the United States for other interests that reduce power benefits in 
your country.
                           ecosystem benefits
    Flexibility within the Treaty has allowed changes in operations to 
benefit ecosystem values, including U.S. salmon recovery, by augmenting 
flows in the spring to better imitate the natural hydrograph, and by 
augmenting flows during late summer and during dry years which are 
particularly critical to fish survival. As climate change predictions 
foresee hotter and drier conditions for the lower Columbia Basin, this 
coordination will become only more valuable for the United States. 
British Columbia believes that we don't need to change the Treaty to 
work toward improving ecosystems even further.
                       navigation and recreation
    Coordination under the Treaty also benefits navigation by limiting 
higher flows that affect shipping times and docking operations, and 
cause sedimentation leading to increased dredging costs. Treaty flow 
augmentation from Canada during low flow periods also increases channel 
draft and reduces the risk of grounding. Generally, because of the 
Treaty, U.S. reservoirs can be also kept fuller with less fluctuation, 
which supports a longer recreation season.
                              water supply
    Currently, the implementation of the Treaty for both power 
production and flood control also benefits water supply in the United 
States. By using Canadian storage for flood control, U.S. reservoirs 
are not drafted as deeply, thereby meeting minimum intake levels and 
reducing pumping costs for irrigation, municipal and industrial water 
supply. Assured flood control planning also provides more certainty of 
annual refill of U.S. reservoirs which is critical to irrigators and 
other water users. Flow augmentation in late summer and early fall, 
supplemented by a dry-year strategy agreement between the Entities, 
supports a wide range of interests, including water supply. This will 
become increasingly important when considering climate change 
predictions.
                        climate change benefits
    Looking into the future--climate change studies predict that total 
precipitation in the Canadian portion of the Columbia Basin will remain 
the same or higher, while the U.S. basin will see a reduction by as 
much as 40 percent. It is predicted that as much as 60 percent of the 
Columbia River flows will come from Canada.
    As climate change will increasingly alter the environment of the 
Columbia Basin in the broadest sense, reservoir management and 
coordination are seen as important tools in adapting to climate change 
challenges that threaten salmon recovery, water supply and energy 
reliability.
                             in conclusion
    As both Canada and the United States continue to review options 
regarding the future of the Treaty, it is important that legislators on 
both sides of the border understand how the Treaty is beneficial, how 
further cooperation can enhance or create new benefits, and what is at 
risk of being lost if the Treaty is terminated.
    British Columbia continues to be guided by the Treaty's fundamental 
premise of collaboration between two countries to create benefits and 
share them equitably. Our draft recommendation to continue the Columbia 
River Treaty and seek improvements based on guiding principles has been 
widely supported in our province. We are looking forward to hearing the 
outcome of the U.S. Treaty review. Thank you for this opportunity to 
offer comments.

                                 ______
                                 

    The Chairman. Thank you very much for your statements. 
We'll now begin the question period. And I'll start, I 
recognize myself for 5 minutes.
    Let me ask both the U.S. and the Canadian entities, and I 
don't know if it's General Kem or Mr. Mainzer, whoever wants 
to, just so we understand what the process is, what is the next 
step in the process after your draft recommendation?
    Go ahead, Mr. Mainzer.
    Mr. Mainzer. Our plan is to submit the recommendation with 
a cover letter this Friday to the Department of State. And then 
I think that we all should take a collective sigh of relief, 
having gotten this far, and then I think the State Department 
will then start going through its own evaluation process, quite 
frankly, to determine whether they are interested in moving 
forward with the negotiation.
    We expect there to be some period of time where we might 
not hear much back from them, quite frankly, and then we're 
hoping within the next few months that we'll start getting some 
initial signals from them that they are intending to move 
forward with the discussion, at which point we will start 
reorganizing ourselves as a region to serve in primarily an 
advisory capacity to the State Department as they serve as the 
principal negotiators with the Federal Government and Canada.
    General Kem. Sir, I would just add one other thing to that. 
The State Department made it clear that they would take the 
information and start the interagency policy committee review 
process that they said would lead to some core recommendation 
to the Secretary of State and eventually the President on how 
to proceed. So we don't own that process, but that's kind of 
how they said that would lay out.
    The Chairman. Ms. Eichenberger?
    Ms. Eichenberger. We are going to be making a 
recommendation to the provincial cabinet in December, and the 
provincial cabinet will be making a decision, I expect, 
sometime in January. But this might not need to have a Federal 
decision. We will inform Canada of what the cabinet's position 
is and work collaboratively with Canada if there are to be 
negotiations in the future.
    The Chairman. So as I understand what you said, then, the 
province may be the final arbiter in Canada's case, which is 
contrary--I mean, obviously, Washington, Oregon, Idaho, and 
Montana will not be--ours will be a Federal issue.
    Ms. Eichenberger. Canada retains its treaty-making powers 
under the constitution, so if there are changes to be made or a 
request from the province to terminate, Canada would have to 
act; however, we are working collaboratively with them with 
regards to any potential changes going forward. The primary 
responsibility will be provincial, through the provinces of 
British Columbia.
    The Chairman. One of the issues that we seem to have here 
in the United States, and it's not confined just to the 
Northwest, is the issue of more water storage for a variety of 
reasons. I'd like to ask you again, Ms. Eichenberger, what are 
the prospects for more storage in Canada to supplement what 
you've described as ensuring the flow? Could you give us an 
idea of what you're thinking of there?
    Ms. Eichenberger. Well, under our Clean Energy Act, it 
identifies two rivers as working rivers for hydropower 
production and other uses, and that is the Peace and the 
Columbia River. And so currently we're undergoing a process to 
add storage on the Peace River system. And so we believe that 
hydropower production is clean energy that is a resourceful 
source of energy, reliable and certain energy that we can 
continue to rely on.
    And currently we are in a surplus situation, but in the 
future, should we require further sources of energy, certainly 
the system, the two Peace and Columbia systems are the systems 
we would look at.
    The Chairman. OK. Final question that I have, I guess, 
General Kem, since you brought it up and I alluded to it, the 
ecosystem part in your discussions. The question I have, just 
as kind of a pretty basic, what is the logic behind elevating 
ecosystems, say, above irrigation or river navigation? Why 
would that have a higher call?
    I mean, the Columbia Basin project itself is over 500,000 
acres. I mean, that's the most obvious one right here in 
Central Washington. Why would ecosystem be elevated any higher 
than, say, irrigation or navigation? What is the logic behind 
that?
    General Kem. Sir, I think the way I said that was, it 
wasn't that any one part is more important than the other, but 
the fact is at this point, when the Entity sits down with 
Canada, B.C., to do the annual operating plans and to work 
through the details of water flow, we do adjust the flow of 
water based on ecosystem functions. We have not sat down and 
adjusted the flow of water for irrigational purposes.
    Those have been a byproduct of it, it happens, we get the 
benefits of it, but we haven't physically sat down and said we 
need water for irrigation today and so we've got to change the 
flows.
    The Chairman. OK. My time is about to expire, so I 
recognize the Ranking Member Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    I didn't quite understand, Ms. Eichenberger, what would 
trigger your having to consult with or defer or engage the 
Federal Government versus renegotiating or whatever--I'm not 
quite sure. I mean, here there's a question on our side whether 
what kind of changes would trigger a need for the Senate to re-
ratify, which is a horrifying prospect to many of us, since 
they never ratify anything. So could you tell me? I don't quite 
understand.
    Ms. Eichenberger. Yes. I'll try to be a little clearer. If 
we wish to make changes within the current framework of the 
treaty, as we have in the past, we would not require the 
assistance of Canada, and we could continue with entity 
agreements. And we're exploring what are the boundaries of 
flexibility that would allow us to do that.
    If we wish to make changes in negotiation consultation with 
the United States that requires something such as an exchange 
of notes, we would make a request to Canada to collaborate with 
us and to work with us to make change to any interests in the 
national interest and the provincial interest, and they would 
then work with the State Department on that.
    Mr. DeFazio. So the trigger is national versus provincial 
interest?
    Ms. Eichenberger. The trigger is whether what we want, we 
may wish to change, can be done within the flexibility of the 
current treaty or whether we need to adjust the framework of 
the treaty itself, which would then require Canada to 
intervene.
    Mr. DeFazio. OK. So we already had mentioned adding a third 
leg formally, as opposed to acknowledging that the system can 
be operated for ecosystem benefits and trying to continue to 
enhance those. But the formal addition of that, would that 
trigger a consultation or something with the Federal 
Government?
    Ms. Eichenberger. Well, we don't believe that it's 
necessary and, therefore, we wouldn't ask Canada to intervene 
to make that particular aspect happen.
    Mr. DeFazio. What do you mean? What isn't necessary?
    Ms. Eichenberger. To make ecosystems a formal part of the 
treaty, as we've demonstrated that the treaty has been able to 
address ecosystem needs in the past and can continue to do so.
    Mr. DeFazio. OK. That helps. That helps a bit.
    So on our side, I think, either or both of you mentioned, 
either General Kem or Acting Administrator Mainzer, you talked 
about, actually, enhancements to the existing or original 
agreement that would make for ecosystem management and somehow 
memorializing those as we go forward in the treaty.
    Could you be a little more specific? And then I want to ask 
her if she thinks that crosses the threshold.
    Mr. Mainzer. Yes. I think our perception is that generally 
it would--we certainly have found some flexibilities within the 
treaty to address ecosystem function issues, but we'd like to 
formalize these mechanisms. We'd like to create adaptive 
management mechanisms, a little bit more formalized, a little 
bit more standardized, with formal mechanisms for addressing 
potential changes, potential modifications if the science 
materializes, and just providing greater certainty that those 
types of mechanisms exist with the treaty context.
    So it's not huge structural changes, but it's more a sense 
of security of formalization.
    General Kem. The only thing I would add is, not speaking 
for the State Department, but when they were out in September, 
as part of their visit, they made it clear that as part of the 
IBC process, when they were looking at the scope of it, that's 
when they were--the first time they were trying to figure out 
whether that mix of things would require change of diplomatic 
notes or could it be done in a way where it required full 
Senate verification. They would only then, after we submitted 
these recommendations, start to review where those kind of red 
lines were.
    Mr. DeFazio. OK. So do you believe that that would trigger 
a Federal consultation?
    Ms. Eichenberger. We're still not exactly clear ourselves 
what that would mean to elevate it as a third leg of the stool 
concretely, and so we're not sure whether it would require 
Federal intervention.
    I just want to actually clarify that we are working closely 
with Canada every step of the way during the review, and so we 
are collaborating on what a process may look like going forward 
if we do need to negotiate----
    Mr. DeFazio. Well, I don't think they said exactly the 
third leg of the stool. They were saying recognizing, 
formalizing agreements we already have about augmented flows 
and maybe potentially some increments on that, I think is what 
they're talking about, not adopting some huge broad new 
category of obligation across the board.
    I mean, I don't know the laws of Canada very well. I assume 
you have some sort of equivalent to an Endangered Species Act, 
some sort of an equivalent, hopefully not as labyrinthian, to 
our national Environmental Policy Act and things like that, 
so----
    Ms. Eichenberger. Well, we don't know whether it would 
require a formal intervention from Canada. We'd have to first 
look at what elevating ecosystems would actually mean and 
whether it could be accommodated within the framework of the 
treaty. We would prefer to use the flexibility of the treaty 
first, prior to asking the Parliament or the Prime Minister's 
office to make a decision on it.
    Mr. DeFazio. OK. And then I think one of--I've identified, 
and I think if the Chair would indulge me for just a minute, I 
think we're going to have significant differences over the 
entitlement. And I'm wondering if British Columbia has made 
sort of an initial--you believe you're being under-recognized, 
and if you've put a number on that over and above what we're 
currently paying.
    Ms. Eichenberger. What you're currently paying is even a 
bit confusing because the way we receive the Canadian 
entitlement in energy and capacity which we sell on the market, 
currently it's valued at about $138 million, not the $250 to 
$350 that's been talked about. It's gone as low as $98 million. 
And that's the only benefit from the treaty that British 
Columbia receives as a return of the Canadian entitlement.
    So what we are doing is a full cost accounting of all the 
benefits that I've touched upon this morning to be able to 
determine what is the true value of the collaboration on 
storage reservoirs and flows at the border and then to go back 
to the original principle of the treaty to share those fairly. 
And so we are doing that work right now.
    Mr. DeFazio. OK. And I'd like to ask the administrator or 
chief just to comment on the number $138 to $98.
    Mr. Mainzer. Well, certainly, you know, market variables 
change, there are a number of issues that--our estimate, 
certainly our base case analysis indicates that it is higher 
than that. The, quote, providing a significant amount of 
capacity, 1,400 megawatts of capacity from the system and over 
500 average megawatts of energy, and it's just, given the 
volatility of the markets, given the multipurposes of that 
capacity, we believe that value is higher.
    But we certainly--we will continue to have a conversation 
with our Canadian counterparts to try to find a center.
    Mr. DeFazio. OK. Thank you, Mr. Chair.
    The Chairman. I just have a follow-up question in the 
second round here, since Pete used his second round here 
already. And it was brought up on the ecosystem, where I see a 
bit of skepticism here on both sides on this.
    So the question I have, then, is if you have the issue of 
the ecosystem management, however defined, how would that 
correlate, then, with U.S. laws like, for example, the BiOp 
that we're waiting for here on the Columbia River or the FERC 
licenses that goes into every energy project that we have and, 
of course, the habitat conservation plans that are widespread 
here in Washington, how--how would inserting something new into 
a treaty correlate with those laws that are already on the 
books here in the United States? So whoever wants to take that 
one.
    Mr. Mainzer. Well, certainly our intention is not to do 
anything that would interfere or preempt any of the critical 
Federal or State laws that are already in the books. They will 
continue to dominate. And I think we know that we have a huge 
infrastructure and paradigm of ecosystem protection already in 
place in the lower 48, so it's--certainly in the Pacific 
Northwest.
    I think what we're trying to do, our fundamental intention 
is it's really at two levels. First of all, it's just to honor 
the regional value that I think is very important to many of 
our regional interests around ecosystem protection. That is 
something that is part of the Pacific Northwest way of life, 
and we have wanted to honor that intrinsically. This is an 
integrated river basin, we wanted to acknowledge that.
    On the other hand, what we're really trying to do primarily 
is to formalize specific mechanisms, which really get down to 
day-to-day discussions between the U.S. Entity and the Canadian 
Entity to make sure we have formalized processes for doing 
things that we have already done in the past, but without 
having to do it on an ad hoc, one-off basis and providing 
greater long-term certainty for the region about how they might 
operate.
    General Kem. Sir, I'll just add to that, when the 
Department of State was out, they emphasized that the 
fundamentals of the treaty is about the flow of water. The 
ecosystem function component, if incorporated, it is important 
if that's what the region recommends, but they did not say 
we're going to sit down with Canada and add U.S. domestic 
components into a treaty.
    We're not going to add our Endangered Species Act 
requirements, per se, into a treaty with Canada. That's a U.S. 
domestic issue. In the end, we sit down with Canada to 
incorporate the flow, the pricing, and the concerns associated 
with that. And the ecosystem part that already affects the 
system and the fact that we do some ecosystem things for 
Canadian fish, they do some things, water flow, that help fish 
in the United States, which needs to be captured in some way.
    The Chairman. Well, it just seems to me, 50 years of 
experience where something like that is not written into the 
treaty, and yet when there are issues that need to be 
addressed, they've been addressed. And that's the concern. I'm 
trying to make a treaty, at least from my perspective, you 
know, by adding a new component that would--when 50 years of 
practical experience that has shown that those things can be 
addressed on a case-by-case basis. That's all I have.
    Pete, do you have any second round?
    Mr. DeFazio. Thanks, Mr. Chairman.
    I mean, seeing--we heard earlier about adaptive management. 
I mean, are there things about the current treaty that restrict 
adaptive management that need to be changed? Or--I mean, it 
seems to me it has evolved quite a bit since the original 
treaty.
    General Kem. I think--I'm not an expert on sitting down on 
the annual operating plan, on the pricing mechanism, so I have 
to defer to both of our staffs to get more details on that.
    But I think what happens is we sit down very constructively 
with Canada, as these adaptive managements have been tried over 
time, and it has been off treaty in some regards; partially on 
treaty, partially off treaty. And so you're always stuck with 
the whims--I say that lightly, not necessarily the whims--but 
the whims of the negotiating table. And, you know--and so if 
their interests change, do you have a mechanism or do they want 
to hold you, in a sense, hold you hostage for something you 
want to do?
    So the better you can price that and formalize that in the 
treaty gives much better left-right limits, so you have 
predictability. Because in the end, the predictability on the 
flow of water is very important for everybody, and the pricing 
of that.
    Mr. DeFazio. OK. And just one other quick thing, just back 
to the entitlement, because I do see this as probably the 
biggest disagreement we have ongoing with Canada. And the 
values that Ms. Eichenberger put out, I'd offer that perhaps 
what we could do then is take an average of that, which is $118 
million a year, and write you a check and forget about the 
exchange of power, since that causes us problems which aren't 
being calculated in, in terms of congesting our system and a 
whole bunch of problems over here by moving power north.
    We're having what are called diseconomies because of that. 
And I don't know that you've fully accounted for those things. 
I don't know that we've even accounted for them as costs or 
lost opportunities on our side of the border. So maybe we just 
ought to go to a cash payment.
    Ms. Eichenberger. I think that after 50 years, it is a good 
time to look at all of the benefits and really understand what 
the value of all of those benefits are and to find a way of 
sharing them fairly, and it could be through a number of 
different means. So we look forward to, if there are to be 
negotiations, sit down and look at the full spectrum.
    Mr. DeFazio. OK. This is going to be tough. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. And I want to thank the panel very 
much. I understand you have to catch a plane, and so we will 
try to accommodate you. And so with that, I'll excuse the 
panel, and thank you very much for your statements.
    Sometimes at these hearings, questions or afterthoughts 
prompt new questions. So if you are--if you are asked later on, 
we'd ask you to respond in a timely manner if you would. OK?
    General Kem. OK.
    Mr. Mainzer. Thank you very much.
    The Chairman. Thank you very much. The first panel is 
excused.
    I now want to welcome the second panel, who is breathlessly 
waiting here, and thank you very much for that.
    We have Ms. Kathryn Brigham, Secretary Treasurer of the 
Columbia River Inter-Tribal Fish Commission out of Pendleton, 
Oregon; Mr. Scott Corwin, Executive Director of the Public 
Power Council, also out of Portland, Oregon; Mr. Tony Webb, 
General Manager of the Grant County Public Utility District 
just north of here in Ephrata, Washington; Mr. Rick Crinklaw, 
General Manager of the Lane Electric Cooperative from Mr. 
DeFazio's area; Mr. Ron Reimann, President of the Columbia-
Snake River Irrigators Association, also a Port Commissioner 
here at the Port of Pasco; Mr. Greg Haller, Conservation 
Director of the Pacific Rivers Council out of Portland; Mr. 
Paul Amos, President of the Columbia River Pilots, also out of 
Portland; and last, but not least, Mr. Wes McCart, who is 
Commissioner of Stevens County, Washington.
    And you've heard my explanation on how the timing light 
works, and all of you have submitted a statement that will be 
part of the permanent record, so if you could keep your oral 
remarks to those 5 minutes, we'd very much appreciate it.
    Ms. Brigham, we'll start with you and you are recognized 
for 5 minutes.

  STATEMENT OF KATHRYN BRIGHAM, SECRETARY TREASURER, COLUMBIA 
     RIVER INTER-TRIBAL FISH COMMISSION, PENDLETON, OREGON

    Ms. Brigham. OK. Is this on? OK, is that--is it on now?
    The Chairman. I think it's on. Can you hear in back, 
audience? Yes.
    Ms. Brigham. All right. Good morning, Chairman Hastings and 
Congressman DeFazio.
    As you stated, you know who I am. I would just like to 
thank you to allow me to be here today. I am very here--very 
pleased here also to be today--why am I stuttering? I'm sorry.
    I'm very pleased to be here today because I'm representing 
15 Columbia River Basin tribes who have worked together to come 
and develop a--what we call a common views document. And we 
started this in 2008. And the reason we started this was 
because we see this as an opportunity to correct some of the 
things that the Columbia River Treaty has had negative impacts 
to the tribes.
    We have seen where flood control is being controlled 
downriver, but it is impacting the rivers up above. We have 
seen where we had clean water, clean air, clean land, and in 
this time we had over 17 million fish come over to the Columbia 
River. These have all changed. Yes, some of these are positive, 
there are some positive things going on, but that is not 
enough.
    I think our biggest concern is we are asking to be 
partners. We are not asking to control the Columbia River 
Treaty. And we know that as partners, we can do a lot. We know 
the Columbia Basin as a whole, when we get together, is a 
powerful entity, and when we are divided, we are weak and 
people are telling us what we should be doing. And, therefore, 
it's important that the Columbia Basin look at the basin as a 
whole, and recognize that there are ecosystem management things 
that need to be done.
    The current treaty, even though it is recognized that the 
ecosystem can be done, we have learned that if you don't have 
something in writing, sometimes when leaders change, things 
change. And so this treaty is going to be in place for a number 
of years, so it's important to have something written down that 
ecosystem is going to be a partner within the Columbia River 
Treaty.
    And since, you know, the 1964 treaty has passed, there have 
been a number of decisions that have--court, Federal Court 
decisions and agreements that you are all aware of that have 
taken place in the Columbia River. They have been positive 
agreements. They have been positive decisions for the Columbia 
River tribes, and we want to continue that tradition.
    Right now, we are cleaning up after our grandparents and 
our parents, and we don't want our children and our 
grandchildren to be cleaning up after us, therefore, we are 
asking that you support the U.S. Entity to develop and 
modernize the treaty and to seek the high-level policy 
recommendations that we are very close to. We've put a lot of 
work in what's going to be presented, and there are a lot of 
points in there that we agree to, but there are some points 
that we are very concerned about, and ecosystem is one of them.
    I mean, we have dams on the Columbia River that no longer 
allow fish passage. We need to correct those. Those are treaty 
rights above those dams, and we have one in court that those 
treaty rights are something that's very important. So, you 
know, we have a number of issues, but we also have a number of 
areas in which we support modernizing that treaty.
    But we think it's really important to develop that regional 
consensus, a consensus that we can all support, a consensus 
that makes the Columbia River a powerful entity, an entity that 
we can all move forward on.
    And I know, Congressman Hastings, you know what this is all 
about, because you've taken the lead in the sea lion issue, and 
because you have taken the lead, the co-managers in the basin 
have stepped forward and found a solution. And I want to thank 
you for your leadership on that issue, because it's been very 
effective and very positive.
    And that's what we're asking for in the Columbia River 
Treaty. Let the co-managers work, let the co-managers find a 
solution, and find out how we can develop a very powerful 
Columbia River entity. Thank you.
    [The prepared statement of Ms. Brigham follows:]
 Prepared Statement of N. Kathryn ``Kat'' Brigham, Treasurer, Columbia 
         River Inter-Tribal Fish Commission, Pendleton, Oregon
    Good morning, Mr. Chairman. I am Kat Brigham, an enrolled member of 
the Confederated Tribes of the Umatilla Indian Reservation and 
Secretary of the Board of Trustees, the Tribes' governing body. I am 
testifying before you today in my capacity as the Treasurer of the 
Columbia River Inter-Tribal Fish Commission and on behalf of the 15 
tribes in the Coalition of Columbia Basin Tribes. These 15 Columbia 
Basin Tribes have legally recognized natural resource management 
authorities and responsibilities reserved under treaties or executive 
orders or as federally recognized tribes that are affected by the 
implementation of the Columbia River Treaty. There are five other 
tribes that may assert interests in the basin that may be affected by 
the Columbia River Treaty; the U.S. Entity is consulting with them 
individually.
            high level consensus-based policy recommendation
    At the outset, I want to highlight the fact that the Columbia Basin 
Tribes worked with the U.S. Entity, other regional sovereigns, and 
Columbia River stakeholders, including the public utility districts, to 
try and craft a consensus-based high level policy recommendation on the 
future of the Columbia River Treaty. We understand that this high level 
policy recommendation will be formally submitted to the U.S. Department 
of State on or about December 13, 2013; a near final draft has been 
released to Congress, regional sovereigns and stakeholders. There is no 
technical analysis or recommendation to accompany this high level 
policy recommendation.
         need to continue collaboration of regional sovereigns
    Over the last 3 years, the Columbia Basin Tribes have collaborated 
with the U.S. Entity and the other regional sovereigns, and more 
recently the stakeholders, to complete three iterations of modeling and 
analysis of a wide range of river and reservoir operations. This 
expansive modeling and analysis was conducted so that the region would 
have a common understanding of the potential impacts from modified 
Treaty operations. While the goal had been to fully integrate this 
wealth of technical information into a document that would support the 
regional recommendation, that final step was not taken at the request 
of the State Department. Therefore, the region's work is not complete--
the regional sovereigns will need to continue their technical and 
policy collaboration in order to support the next phase of the Treaty 
review process--the State Department's consideration of the high level 
policy recommendation developed by the region.
          key elements of the draft high level recommendation
    I believe the region was successful in crafting much of the 
recommendation. That is to say, the Columbia Basin Tribes support the 
major elements of the recommendation, but some elements require 
additional background and clarification. Critical elements of the draft 
regional recommendation for the Columbia Basin Tribes include:

    <bullet> modernizing the Columbia River Treaty by integrating 
            ecosystem-based function as a third primary purpose of the 
            Treaty, equal to the Treaty's current obligations for the 
            United States and Canada to coordinate hydropower 
            generation and flood risk management;
    <bullet> enhancing spring and summer flows while stabilizing 
            reservoir operations;
    <bullet> pursuing a bilateral international effort between the 
            United States and Canada with the shared goal of returning 
            salmon and steelhead to spawning and rearing habitat into 
            the Upper Columbia River above Grand Coulee dam;
    <bullet> ensuring that future treaty operations do not impact fish 
            passage efforts throughout the basin;
    <bullet> pursuing potential alternatives for post-2024 operations 
            to meet flood risk management objectives, including the 
            possibility of using planned or assured Canadian Storage, 
            consistent with ecosystem function, and completing an 
            infrastructure assessment and updating reservoir management 
            through a domestic process as necessary to accomplish this 
            objective;
    <bullet> securing a dry water year strategy; and,
    <bullet> reducing U.S. energy costs through rebalancing the 
            Canadian Entitlement.

    It is also important to build sufficient flexibility into a 
modernized Treaty so that operations can adapt to the impacts of 
climate change and other factors. We believe that the regional 
sovereigns and stakeholders have coalesced around most of these broad 
policy goals, and we look forward to working with the U.S. Department 
of State to advance these goals through discussions with Canada, the 
province of British Columbia and the First Nations.
                        background on the treaty
    As you know, the Columbia River Treaty was signed and ratified by 
the United States in 1961 and, after the adoption of a protocol, was 
ratified by Canada and implemented by the two countries in 1964. Under 
the Treaty, Canada agreed to build three storage dams and coordinate 
the operation of these new storage facilities with the U.S. 
hydroelectric power supply system in order to optimize hydroelectric 
power production and to provide coordinated flood control benefits. The 
U.S. was allowed to build Libby Dam in Montana, creating Lake 
Koocanusa, which backs 40 miles into Canada.
    The U.S. Entity will tell you that the Treaty is a model of 
international cooperation for the management of a transboundary river 
system. But that international cooperation is limited in the purposes 
it serves, optimizing hydropower generation and coordinated flood risk 
management. The Treaty is not currently designed to provide for 
ecosystem-based functions. Under the current Treaty, we can only modify 
operations in very limited ways to benefit ecosystem-based function, 
and only when both countries agree there are mutual benefits that flow 
from those modified operations. I do want to point out that the Treaty 
increased the impacts of hydropower to communities by moving the flood 
upriver, these impacts began before the Treaty with the earlier 
construction of dams on the mainstem in the United States that affected 
the cultural and natural resources of the Columbia Basin Tribes, First 
Nations and other communities all the way up to the Basin headwaters in 
Montana, Idaho and British Columbia.
       no prior and informed consent of tribes and first nations
    In negotiating the Treaty and developing the Treaty's coordinated 
system operation, the U.S. did not consult with the Columbia Basin 
Tribes nor consider the effect of the Treaty on our cultural and 
natural resources, yet the Treaty has had far reaching impacts on our 
cultural and natural resources that continue to this day. Not only were 
the Columbia Basin Tribes not consulted during the Treaty's 
negotiation, the tribes were excluded from its governance and 
implementation, as well as sharing in the benefits of the Treaty. The 
Treaty does not include considerations of critical tribal cultural 
resources. The coordinated power and flood control system created under 
the Treaty degraded rivers, First Foods, natural resources, and tribal 
customs and identities. The coordinated flood risk management plan, 
while providing substantial protections for Portland and Vancouver, 
permanently moved the floods upriver through the creation and 
maintenance of large storage reservoirs. The Treaty currently limits 
the ability of Treaty and non-Treaty water agreements to address these 
issues and meet tribal resource priorities.
columbia river treaty 2014/2024 review and the sovereign participation 
                                process
    When the U.S. Entity initiated the Columbia River Treaty 2014/2024 
Review, the 15 tribes recognized the opportunity to work with the U.S. 
Entity to correct past mistakes and improve upon the Treaty. The 
Columbia Basin Tribes began meeting in January 2008 to identify their 
common issues and concerns with the Treaty and its implementation, 
while also meeting on a government-to-government basis with the U.S. 
Entity to develop a better understanding of the Treaty's 
implementation. By February 2010, the tribes' several meetings and 
workshops on the Treaty led to the development of the ``Columbia Basin 
Tribes' Common Views on the Future of the Columbia River Treaty''--
known as the tribes' Common Views document. I have included a copy of 
this document with my testimony. I have also provided you with a map of 
the Basin that shows you the location of the 15 tribes, as well as that 
of the First Nations in Canada that have asserted interests affected by 
the Treaty's implementation in Canada.
  developing the sovereign participation process for the treaty review
    The Columbia Basin Tribes met with the U.S. Entity in July 2010 to 
discuss their issues and concerns with the Treaty and how best they 
could collaborate with the U.S. Entity to address these issues through 
the Treaty Review. At that meeting, the U.S. Entity agreed to work with 
the Columbia Basin Tribes, other Federal agencies and the States to 
establish the Sovereign Participation Process for the Treaty Review. 
The Sovereign Participation Process was three-tiered: the first tier 
was government-to-government, where decisions were made regarding 
policy issues; the second tier was the Sovereign Review Team, where the 
regional sovereigns coordinated, discussed policy issues and provided 
guidance to the Sovereign Technical Team; and finally, the Sovereign 
Technical Team, which conducted the technical modeling and analysis.
    The Sovereign Participation Process also provided for expert policy 
and technical input from stakeholders, including presentations from 
expert panels on power, water supply and irrigation. Building upon the 
bilateral Phase I Report released by the U.S. and Canadian Entities in 
August 2009, the sovereigns completed three more iterations of modeling 
and analysis. As each of the three iterations of modeling and analysis 
was, the U.S. Entity, with the support of the other regional 
sovereigns, took the lead on reporting out the results to stakeholders 
through a series of public meetings or ``listening sessions'' held 
across the basin. These listening sessions provided cities, counties 
and other public representatives and stakeholders to ask questions and 
provide feedback.
                additional detail on ecosystem function
    One of the most significant, and appropriate, features of the high 
level recommendation is the addition of ecosystem function as a third 
primary purpose of the Treaty, along with flood control and 
hydroelectric generation. During the course of the discussions at 
government-to-government and Sovereign Review Team meetings, tribal 
representatives and staff were often asked to describe ``ecosystem-
based function.'' Tribal leaders explained that since time immemorial, 
the rivers of the Columbia Basin have been, and continue to be, the 
life blood of the Columbia Basin Tribes. The ecosystem function of the 
Columbia Basin watershed is measured as the Basin's ability to provide, 
protect and nurture cultural resources, traditions, values and 
landscapes throughout its length and breadth. The Columbia Basin Tribes 
hold that clean and abundant water that is sufficient to sustain 
healthy populations of fish, wildlife, and plants is vital to holistic 
concept of ecosystem-based function and life itself.
                                closing
    The Columbia Basin Tribes would be happy to answer any additional 
questions you might have about the tribes' views on the high level 
regional recommendation, or the integration of ecosystem-based function 
into a modernized Treaty, whether now or in the future. We look forward 
to working with the Department of State, our elected representatives in 
Washington, D.C., regional sovereigns and stakeholders and the U.S. 
Entity in 2014 as the State Department considers the regional 
recommendation.

                                 ______
                                 

 Columbia Basin Tribes \1\ Common Views on the Future of the Columbia 
                              River Treaty
---------------------------------------------------------------------------
    \1\ The Burns Paiute Tribe, the Coeur d'Alene Tribe, the 
Confederated Salish and Kootenai Tribes of the Flathead Nation, the 
Confederated Tribes of the Colville Reservation, the Confederated 
Tribes of the Umatilla Indian Reservation, the Confederated Tribes and 
Bands of the Yakama Nation, the Confederated Tribes of the Warm Springs 
Reservation of Oregon, the Cowlitz Indian Tribe, the Kalispel Tribe of 
Indians, the Kootenai Tribe of Idaho, the Nez Perce Tribe, the Fort 
McDermitt Paiute Shoshone Tribe, the Shoshone-Bannock Tribes of the 
Fort Hall Reservation, the Shoshone Paiute Tribes of the Duck Valley 
Indian Reservation, and the Spokane Tribe of Indians, with support from 
the Columbia River Inter-Tribal Fish Commission, Upper Columbia United 
Tribes, and the Upper Snake River Tribes tribal organizations have been 
working together to consider the effects and alternatives related to 
the Columbia River Treaty.
---------------------------------------------------------------------------
                           February 25, 2010
    The present Columbia River power and flood control system 
operations are negatively affecting tribal rights and cultural 
interests throughout the Columbia Basin. The Columbia River Treaty is 
foundational to these operations.
    The Columbia River Treaty:

    <bullet> Was negotiated and continues to be implemented without 
            regard to the tribes' unique legal and political 
            relationship with the Federal Government.
    <bullet> Is narrowly designed for the benefit of power and flood 
            control.
    <bullet> Does not include ecological considerations for critical 
            tribal natural resources.
    <bullet> Does not include considerations of critical tribal 
            cultural resources.
    <bullet> Created a power and flood control system that degraded 
            rivers, First Foods, natural resources, and tribal customs 
            and identities.
    <bullet> Significantly affects tribal economies.
    <bullet> Excludes tribal participation in its governance and 
            implementation.
    <bullet> Limits what can be accomplished with non-Treaty agreements 
            to meet tribal resource priorities.

    The Columbia River Treaty is under review by the U.S. and Canadian 
governments for reconsideration in 2014. Reconsideration of the Treaty 
provides an opportunity for the tribes to seek benefits not realized in 
50 years of Treaty implementation.
    The Columbia Basin tribes' interests must be represented in the 
implementation and reconsideration of the Columbia River Treaty. The 
Columbia River must be managed for multiple purposes, including:

    --Respect for the sovereignty of each tribal government--each tribe 
            has a voice in governance and implementation of the 
            Columbia River Treaty.
    --Tribal cultural and natural resources must be included in river 
            management to protect and promote ecological processes--
            healthy and useable fish, wildlife, and plant communities.
    --Integrate the tribes' expertise of cultural and natural resources 
            in river management.
    --Equitable benefits to each Tribe in priority to other sovereign 
            parties in Columbia River management.
    --Respecting and preserving the benefits of settlement agreements 
            with tribes.
    --Recognize tribal flood control benefits.
    --Protecting tribal reserved rights to current and future 
            beneficial uses, in a manner consistent with ecosystem-
            based management.

    In order to realize these principles, the tribes' collective voices 
must be included in the implementation and reconsideration of the 
Columbia River Treaty.

                                 ______
                                 

    The Chairman. Ms. Brigham, I understand we're going to 
deviate a bit from the schedule because you have a flight to 
catch here.
    Ms. Brigham. Yes.
    The Chairman. So in order to accommodate you, we're going 
to--we won't have the testimony right now, and I just have a 
couple of questions and Mr. DeFazio has a couple of questions.
    Ms. Brigham. OK.
    The Chairman. Then we'll excuse you so you can catch your 
flight.
    Ms. Brigham. All right. Thank you.
    The Chairman. First of all, thank you for the compliment in 
regards to the legislation on the sea lions. But there's 
another aspect because I know how important the salmon runs are 
to you. And the concern I have, and this is kind of based on 
the exchange I had here with the first panel, for 50 years we 
have had a treaty in place where there has been flexibility to 
address those issues.
    One of the things that the tribes have done, and I 
certainly am very much supportive of, is the fish hatcheries 
that I think have contributed to the record runs coming back. 
The question that I would have, and maybe something to 
contemplate, if you don't have a direct response right now, but 
by inserting another element, like ecosystem, into the treaty, 
would that potentially or not potentially affect the fish 
hatcheries? Because now you have an international, you know, 
someone may have a problem with that, who knows.
    As you know, there is a lot of discussion on hatcheries. I 
happen to be one that thinks you're doing the right thing in 
that regard. But if you add an international element; i.e., a 
treaty, to fish hatcheries, I just wondered if you've given 
some thought to that, recognizing what you said about some of 
the dams that don't have fish hatcheries. Have you given any 
thought to that?
    Ms. Brigham. Yes, we have, a little bit. But I think I 
agree with General Kem's presumption that, you know, we have 
our own domestic process, and within our own domestic process, 
we will go through that process. And as you already know, when 
we want to build a hatchery on the Columbia River, we go 
through a number of steps to get that concurrence.
    And for the Umatilla tribe, we just received that 
concurrence for the Walla Walla Basin. So we are going to be 
constructing a Walla Walla hatchery, and we hope to complete it 
by 2016.
    And we also have on the Pacific Salmon Treaty, that already 
looks at salmon populations and harvest. So we annually adopt 
fishing regimes for how fish are going to be harvested, and 
they already look at what's going on with fish production.
    So it may not play a part in the Columbia River Treaty 
being modernized, but it is going to play a part in the 
Columbia Pacific Salmon Treaty, which has already been agreed 
to and signed in 1985.
    The Chairman. Well, it's just another element that, 
obviously, that I had some concerns with because it's the 
unknown. And if there's one thing that I have learned loud and 
clear it's that environmental issues tend to be more litigious 
than anything else.
    Ms. Brigham. Yes.
    The Chairman. And we have 50 years of having been able to 
deal with that on a domestic level, so that's the caution that 
I have, so----
    Ms. Brigham. OK.
    The Chairman. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for your 
testimony. And having to catch planes all my life here, I'll be 
very quick.
    You know, recognizing, I think, that the domestic process 
is very important, but as you heard from my exchange with Ms. 
Eichenberger, or my questions, it seems that they are, shall I 
say, skeptical about incorporating this in a broader way into 
the treaty, as looking at a treaty that's flexible enough to 
accommodate us on either side of the border. I mean--and that 
seems to be what you're saying here, is that correct?
    Ms. Brigham. Yes, the ecosystem. But at the same time, I 
know that, you know, the First Nations on the other side of the 
border would like ecosystem. You know, so there are some people 
on both sides who would like ecosystem considered in the 
modernizing of the treaty.
    Mr. DeFazio. Right.
    Ms. Brigham. I know it's complicated, it's very 
complicated.
    Mr. DeFazio. Well, in particular, they were, in another 
written document I saw from them, they were much more 
definitive about the idea of--and this is where you come into a 
very interesting sovereign versus sovereign versus sovereign 
versus sovereign, perhaps, is that in fish above Grand Coulee, 
that--I saw a very definitive statement from British Columbia 
saying we don't want that.
    Now, there may be First Nations up there that want it. I 
don't know how they resolve those things in Canada. And we have 
had a long series of litigation resolving--you know, tribal 
rights and fisheries here in the United States.
    Ms. Brigham. Right.
    Mr. DeFazio. So I just wanted to point out that trying to 
put something into the treaty that at least one of the 
principal entities being, you know, the government, is 
adamantly opposed to would seem to me to be very problematic in 
terms of getting to a successful negotiation.
    Ms. Brigham. I think it's important to also note that for a 
number of reasons we didn't have sockeye salmon returning back 
to the Columbia River, and then when the Canadian government 
stepped up and the First Nations stepped up, we started 
reproducing sockeye salmon. Now we have record sockeye runs 
back into the Columbia River. We have the largest sockeye runs 
that we've ever had in the Columbia River.
    So it can be done. It's not easy and it's not very 
complicated, but this is something that we are willing to work 
together on to figure out how we can make it happen. We know 
that during the negotiations, we can't all of us come back with 
what we want, because that's part of negotiations. But we're 
hoping that we do develop a win-win situation so that we can go 
back and tell our children's children that, you know, things 
are going to change.
    Eventually we're going to be able to drink the water that 
we are not being able to drink now without being treated. We 
have people who can't breathe the air when they get allergies, 
and we have land that we cannot go on because of contamination, 
but we need to make those changes.
    And the Columbia River Treaty and so many other things 
because, you know--and I think that's been part of the problem 
is that people say, this is my territory, this is mine, this is 
mine, this is mine, and yet it's all linked together. Tribal 
leaders have learned from a very long time ago that everything 
goes in a circle and we have to plan for the next set of 
generations because if we don't, our children are going to be 
in a worse condition than we are.
    Mr. DeFazio. OK. Thank you.
    The Chairman. Thank you very much, and I think we will keep 
you on time here.
    Ms. Brigham. Thank you very much for accommodating me.
    The Chairman. Thank you very much for your testimony.
    We'll now recognize Mr. Scott Corwin with the Public Power 
Council, recognize you for 5 minutes.

  STATEMENT OF SCOTT CORWIN, EXECUTIVE DIRECTOR, PUBLIC POWER 
                   COUNCIL, PORTLAND, OREGON

    Mr. Corwin. Thank you, Mr. Chairman, Ranking Member.
    The Public Power Council represents electric utilities in 
the Pacific Northwest that purchase power and transmission from 
the Federal Columbia River power system. We are also a member 
of the Columbia River Treaty Power Group, consisting of over 80 
electric utilities, along with other regional industries.
    Mr. Chair and Ranking Member, we really appreciate your 
knowledge and leadership of these regional issues, and 
especially your interest in the future of the treaty here. And 
we appreciate the work of the U.S. Entity on this and their 
willingness to listen to our concerns lately.
    It's vital that members of the treaty power group and 
electricity consumers, along with tribes, States, other 
regional stakeholders, continue to be involved during the next 
phase of the process. This hearing is an important step in 
ensuring that involvement, and I'm honored to be here with two 
of the managers of utilities in the region and also with Ms. 
Brigham and the other witnesses.
    As the treaty recommendation moves to the State Department, 
it's critical that its review proceed expeditiously. Every 
month that goes by is a substantial loss in value to U.S. 
residents. The Columbia River Treaty has provided benefits to 
both countries, certainly, since its inception, but the power 
provisions are vastly out of sync with current conditions.
    The U.S. obligation under the Canadian entitlement far 
exceeds the actual power benefit we receive. If this inequity 
is not addressed, there will be an enormous lost opportunity 
and a disservice to citizens of the northwest United States. 
Without correction, by 2025, the United States would be 
returning to Canada about 450 average megawatts of clean 
hydropower and over 1300 megawatts of capacity, valued at 
approximately $250 to $300 million annually, not to mention the 
value for system operations and reliability and integration of 
variable resources like wind power.
    Meanwhile, the U.S. Entity's own estimate of the actual 
annual value received by the United States is in the range of 
$25 to $30 million, about one-tenth of the obligation sent to 
Canada. This inequity is unsustainable.
    Power benefits sent north should not exceed one-half of the 
actual incremental benefit achieved through a coordinated U.S.-
Canada operation, as the treaty intended. It should not be 
based on inaccurate and outdated extrapolations of 1960's 
forecasts of conditions pre and post dam construction.
    The nature of the assumptions in the forecast, the 60-year 
time period, and the provisions for a 10-year notice of intent 
to terminate at the end of the initial treaty term all 
demonstrate a clear intent that the two nations would need to 
update these arrangements and re-evaluate the benefits and 
obligations over time. Also, national clean energy policy 
objectives argue for correcting the balance of benefits, rather 
than over-exporting clean, renewable domestically produced 
energy out of our country.
    On flood control, the financial responsibility for funding 
called upon or any other flood risk management strategy should 
be the responsibility borne equitably by all taxpayers since 
the benefit from those efforts accrue to the general public. 
Electricity customers in the Northwest should not shoulder this 
cost.
    Regarding ecosystem issues, customers of electric utilities 
in the Northwest have made significant investments totaling 
tens of billions of dollars in the river ecosystem. We have a 
large stake in seeing the success of these programs. There 
needs to be an adequate recognition of and accounting for the 
efforts already underway.
    And it is key that any other proposals have a strong basis 
in the best available science with known costs and benefits and 
then they not adversely affect ongoing programs for aquatic 
species and not negatively impact electric system reliability 
or navigational needs.
    Hydropower is one of our main economic drivers in our area 
of the country. The Northwest residents depend on it for almost 
60 percent of generating capacity. Industries rely upon the 
economically priced power because they operate in highly 
competitive global markets. A modernized treaty that is 
sustainable must truly rebalance the sharing of power benefits, 
and we will urge the State Department and other Federal 
agencies to expeditiously move toward that end.
    We thank you for your involvement and guidance on this 
important topic to electricity customers, and I'm happy to 
answer any questions. Thank you.
    [The prepared statement of Mr. Corwin follows:]
Prepared Statement of R. Scott Corwin, Executive Director, Public Power 
                       Council, Portland, Oregon
    Good morning, Chairman Hastings, Ranking Member DeFazio, and 
Members of the Committee. My name is Scott Corwin. I am the Executive 
Director of the Public Power Council (PPC), an association representing 
consumer-owned electric utilities of the Pacific Northwest that 
purchase power and transmission marketed by the Bonneville Power 
Administration (BPA). Our member utilities have service territories 
with consumers in portions of eight Western States.
    PPC is also a member of the Columbia River Treaty Power Group, 
consisting of over 80 electric utilities, industry associations and 
other entities that depend on power produced by the Columbia River 
hydropower generating plants. Together, we represent at least 6.4 
million electric customers in the four Northwest States that are 
directly impacted by this Treaty. More information can be found at the 
group's website (www.crtpowergoup.org).
    Our primary concern has been to ensure that the Treaty discussions 
prioritize the fundamental need to reestablish an equitable 
distribution of power benefits between the United States and Canada. If 
this inequity is not addressed, it will be an enormous lost opportunity 
and a disservice to the citizens of the Northwest United States. We 
share the goal of building the broadest agreement possible to build a 
base of better engagement with Canada next year. The Columbia River 
Treaty has provided benefits to both countries since its inception. It 
is our hope that a rebalancing of the Treaty in the future will ensure 
mutual benefit for decades to come.
    The U.S. Entity for the Treaty (BPA and the U.S. Army Corps of 
Engineers) is about to release a final recommendation to the Department 
of State that will serve as a basis for possible negotiations with 
Canada to improve and modernize the Treaty. As this process moves into 
the hands of the Department of State in Washington, DC, it is very 
important that the next phase of the review proceed expeditiously. As 
described below, every month that goes by is a substantial loss in 
value to U.S. residents.
    We greatly appreciate the Committee's interest in the future of the 
Columbia River Treaty. Recently, we have appreciated being able to work 
with the U.S. Entity and others in the region regarding our strong 
concerns with prior drafts of the U.S. Entity's recommendation. Going 
forward, it is vital that members of the Treaty Power Group, along with 
Tribes, States, and other regional stakeholders, continue to be 
involved in the process. This hearing is an important step in ensuring 
that involvement.
 the canadian entitlement must be rebalanced in any treaty negotiation 
                              with canada
    The primary objective of engaging in any Treaty negotiations with 
Canada must be focused on correcting the current inequity of the U.S. 
obligation under the Canadian Entitlement, and providing a significant 
net benefit to the region's consumers. Regional consensus on a path 
forward hinges on this being the centerpiece issue in any Treaty 
negotiations. Reducing the financial burden to Northwest electric 
customers, caused by a Canadian Entitlement vastly out of sync with 
current conditions, and returning the use of clean, renewable 
hydroelectricity to the Northwest, is clearly in the best interest of 
the United States. This is the cornerstone of any negotiation with 
Canada, and should be openly recognized as such.
    In sum, the U.S. obligation under the Entitlement far exceeds the 
actual power benefit received. If the Treaty continued using the 
current calculations for the Canadian Entitlement, by 2025 the United 
States would be returning to Canada about 450 average megawatts of 
clean hydropower and 1,300 megawatts of capacity each year, valued at 
approximately $250 to $350 million annually (not to mention its value 
for system operations and reliability). Northwest electric customers 
are likely to provide well over $2 billion in benefits to Canada over 
the next 10 years alone, despite the U.S. Entity's own estimate that 
the actual annual value of this benefit to the United States is only in 
the range of $25 to $30 million (i.e., only one-tenth of the current 
Canadian Entitlement obligation).\1\
---------------------------------------------------------------------------
    \1\ See U.S. Entity Studies, Iteration #2 Alternatives & 
Components: General Summary of Results at 34 (Apr. 10, 2013).
---------------------------------------------------------------------------
    This inequity is unsustainable. The focus should be on analyzing 
the problems in the current methodology for calculating the Canadian 
Entitlement, identifying possible solutions for correcting these 
problems, and implementing a recommendation for addressing these 
matters with Canada at the earliest possible time. By 2024, 60 years 
will have passed since the Treaty was ratified.
    The U.S. has a duty on behalf of its citizens, and Northwest 
electricity customers in particular, to rebalance the Canadian 
Entitlement in a manner that ensures that the U.S. obligation under the 
Treaty is commensurate with the power benefits actually received. 
Amounts provided to Canada for downstream power benefits should not 
exceed one-half of the actual, incremental power benefit achieved 
through a coordinated U.S./Canada operation (as compared to the non-
coordinated operation).
    From the perspective of those trying to make ends meet or create 
jobs in the region, it is untenable that we would continue to shift 
this level of generation and wealth to another country. The appropriate 
level of value returning to Canada after the initial 60-year agreement 
must be based on the benefits of ongoing coordinated operations between 
the U.S. and Canada--not on an inaccurate and outdated comparison of 
conditions pre- and post-dam construction.
    Correcting the Canadian Entitlement also is consistent with the 
Administration's clean energy policy objectives. From that perspective, 
it is counterproductive to export between $2 billion and $3 billion in 
clean, renewable, domestically produced energy over the next decade and 
beyond. Correcting that inequity should be the highest priority of the 
State Department when pursuing any Treaty negotiations with Canada. 
Each year after 2024 in which the Canadian Entitlement remains 
unchanged is a significant loss of resources and value for the United 
States.
                   the inequity of the current treaty
    The United States has compensated Canada for the construction of 
Canadian storage projects that improved flood control and increased 
hydropower generation in both countries. This compensation took the 
form of lump sum payments and the provision of the Canadian 
Entitlement, which represents Canada's share of the difference in 
hydroelectric power capable of being generated in the United States 
with and without the use of Canadian storage. Over the last 50 years of 
implementing this arrangement, actual U.S. benefits of coordinated 
operations with Canada have reduced precipitously while the Canadian 
Entitlement calculations in the Treaty are tied to theoretical, 50-
year-old assumptions.
    When the Treaty was ratified, both the U.S. and Canada anticipated 
that the Treaty calculation of U.S. power benefits would result in a 
much smaller energy benefit by 2024. The U.S. and Canada acknowledged 
that the real power benefits could be much less than the Treaty 
calculation due to additional U.S. storage reservoirs and transmission 
interconnections that are not included in the Treaty calculation. These 
assumptions and forecasts, together with the provisions for a 10-year 
notice of intent to terminate at the end of the initial Treaty term,\2\ 
demonstrate an intention that the two nations would update these 
assumptions and reevaluate the benefits and obligations over time.
---------------------------------------------------------------------------
    \2\ Treaty, Art. XIX(2).
---------------------------------------------------------------------------
    History has shown that no matter how sincere the effort to 
appropriately calculate the Canadian Entitlement might have been, a 
static formula based upon extrapolations of then-current conditions 
into the future was not an optimal approach to ensuring fair and 
equitable outcomes. The original methodology was not developed to 
capture the actual realized downstream power benefits created by the 
Treaty so much as it was a compromise method that was based upon then-
current expectations about the future. It was focused on the outdated 
attempt to estimate benefits of construction of the Canadian storage 
projects compared to the operation of a U.S. power system, as it stood 
prior to 1965.
    During original Treaty negotiations, there clearly was an 
expectation by both countries that the Canadian Entitlement would end 
well before 2024. The current methodology was a choice, based upon 
expert judgment in the early 1960s, that it would be a reasonable 
approximation to the actual power benefits created by Canadian storage 
based upon certain expectations as to how the future would unfold. 
However, the future unfolded much differently than expected.
    Several factors have greatly undermined the reasonableness of the 
current Treaty methods as an approximation of the actual downstream 
power benefits resulting from the original Treaty, and thus the 
accuracy of the calculated Canadian Entitlement. These factors include 
significantly lower than expected regional electric load growth, 
greatly expanded opportunities to market non-firm hydropower outside 
the region, a much wider slate of power supply resource types than 
existed at the time of Treaty signing, and changing societal 
preferences regarding environmental and cultural issues. The result is 
the severe imbalance in benefits received relative to costs paid by 
U.S. power consumers.
    Now, as the 60th anniversary of ratification approaches, is the 
time to reevaluate these benefits and begin steps to rebalance Treaty 
obligations to match the actual benefits received.
                         flood risk management
    It is critical that there be a common understanding between the 
United States and Canada regarding the methods and procedures for post-
2024 ``called upon'' flood control. We believe that the financial 
responsibility for funding ``called upon'' or any other flood risk 
management strategy within the Columbia River Basin should be a 
responsibility borne equitably by all taxpayers, since the benefit from 
these efforts and investments accrue to the general public. Electricity 
customers in the Northwest should not be required to shoulder 
responsibilities that would otherwise be paid for from the general 
Federal, State, and local funding base.
                     treaty scope and the ecosystem
    As national leaders in both energy efficiency and fish and wildlife 
mitigation, electric utilities in the Northwest are firmly committed to 
environmental stewardship. It is notable that, under the existing 
Treaty and non-Treaty agreements, electricity customers in the 
Northwest have made significant investments, totaling tens of billions 
of dollars, resulting in ecosystem improvements through Habitat 
Conservation Plans (HCPs), Federal Energy Regulatory Commission (FERC) 
licenses, Bonneville Power Administration's fish and wildlife program, 
and other investments associated with the FCRPS Biological Opinion and 
Columbia Basin Fish Accords. We have a large stake in the seeing the 
success of these programs.
    PPC and other members of the Treaty Power Group have stated that, 
to the extent a modernized Treaty is to address ecosystem matters, 
adequate recognition of and accounting for efforts already underway is 
critical. We have also noted the risk of lack of clarity and 
specificity in Treaty recommendations. And, we have emphasized the 
importance of ensuring that any provisions not adversely affect ongoing 
programs for aquatic species, that they have a strong basis in the best 
available science, and that the costs and benefits are clearly 
established and compelling. In addition, provisions must not compromise 
the integrity of electric system reliability, must not negatively 
impact navigational needs, must not impede long-standing water supply 
obligations, and must not interfere with ongoing ecosystem management 
under existing Federal and State regulatory programs, including FERC 
licenses.
                             power and jobs
    The Federal Columbia River Power System creates clean electricity 
for millions of residents. Its array of benefits reach all corners of 
the Northwest in the form of economically priced emission-free power, 
navigation, irrigation, recreation, and of course, fish and wildlife 
habitat.
    It is important to remember the foundations of this Treaty. From 
the beginning, the focus of the Columbia River Treaty was upon power 
production and flood control. In a message to the U.S. Senate 
transmitting the Columbia River Basin Treaty with Canada on January 17, 
1961, President Dwight D. Eisenhower said:

        ``The treaty is an important step toward achieving optimum 
        development of the water resources of the Columbia River basin 
        as a whole from which the United States and Canada will each 
        receive benefits materially larger than either could obtain 
        independently.

        The United States will secure a large block of power at low 
        cost, substantial flood control benefits, and additional 
        incidental benefits for irrigation, navigation, pollution 
        abatement, and other uses resulting from controlled storage. 
        Canada will also receive a large block of power at a low cost, 
        as well as flood control and other benefits resulting from the 
        control of water flow.''

    And, in his remarks with Prime Minister Pearson upon proclaiming 
the ratified Treaty on September 16, 1964, President Lyndon B. Johnson 
talked of the cooperation between the two countries. His only comment 
on the substance of the Treaty is on the power provisions, noting among 
other things that, ``It will supply new electric power to millions of 
my countrymen.''
    These leaders understood very well the critical role of hydropower 
in the Northwest as one of the main economic drivers in an area that 
has other geographic challenges to economic growth. Today, Northwest 
residents depend on hydropower for almost 60 percent of the generating 
capacity in the region. Industries rely on economically priced power 
because they operate in highly competitive global markets. Any increase 
in major cost inputs, especially energy costs, directly pressures the 
sustainability of employment levels. In addition, increases to power 
rates directly threaten the cost effectiveness of essential irrigation 
services and many other power dependent sectors.
                               conclusion
    The Columbia River is a magnificent asset that plays a central role 
in the Northwest's economy and cultural identity. It generates clean 
electricity to millions of people, avoids carbon emissions, provides 
habitat for fish and wildlife, offers recreational opportunities, 
provides water for navigation, and now also plays an important role in 
integrating wind into the electric grid.
    The Columbia River Treaty helped create mutual benefit from this 
system for many years. A modernized approach that rebalances the 
sharing of power benefits is crucial to having a sustainable Treaty 
moving forward.
    Thank you for holding this hearing today on an important topic to 
electricity consumers. And, thank you for the opportunity to testify. I 
look forward to answering any questions.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Corwin, for your 
testimony.
    I'll now recognize Mr. Tony Webb, manager of the Grant 
County PUD.
    Mr. Webb, you're recognized for 5 minutes.

 STATEMENT OF TONY WEBB, GENERAL MANAGER, GRANT COUNTY PUBLIC 
             UTILITY DISTRICT, EPHRATA, WASHINGTON

    Mr. Webb. Good morning, Chairman Hastings and Ranking 
Member DeFazio.
    Grant County PUD is the consumer-owned utility that serves 
90,000 residents within Grant County. This rural, predominantly 
agricultural area borders on the west of the Columbia River. 
Nationally, Grant County is an agricultural leader ranking 5th 
in the United States for irrigated acreage and 11th for value 
of crops produced.
    Our major power consumers include food processors, frozen 
food storage, data centers, silicon production, steel 
fabrication, and auto carbon fiber manufacturing. Grant PUD 
owns significant electric generation assets, all of which are 
100 percent renewable, a vast majority of that generation 
coming from our two hydro developments, Priest Rapids and 
Wanapum Dams on the Columbia River.
    These valuable renewable resources support reliable 
electricity delivery, clean air, and significant economic 
benefits for millions of families and businesses throughout the 
Pacific Northwest. My message today is simple: Rebalancing the 
Canadian entitlement should be the top priority of the U.S. 
Entity's final recommendation.
    What's at stake is lost opportunity for the United States, 
specifically the potential that future jobs could be 
transferred north. Grant PUD is one of three public utility 
districts that own and operate non-Federal hydropower dams on 
the mid-Columbia River. Together, the three mid-Columbia PUD's 
pay 27\1/2\ percent of the Canadian entitlement.
    As identified by BPA, the actual power benefit to the U.S. 
on ongoing coordinated operations with Canada has greatly 
reduced over the past 50 years, and is now worth a fraction of 
the current Canadian entitlement. If the treaty continues post-
2024, we are concerned that the U.S. electric consumers will be 
paying too much for diminishing downstream power benefits.
    While the U.S. Entity acknowledges the need to rebalance 
the Canadian entitlement, we believe this is the single most 
important issue that must be addressed in the final 
recommendation because of the potential and significant lost 
economic opportunity to the United States and the region. I 
will illustrate this point by using one of Grant PUD's newest 
industrial customers as an example.
    German automaker BMW, in a joint venture with SGL Group, a 
major German carbon products company, conducted a worldwide 
search to locate their new state-of-the-art auto carbon fibers 
manufacturing plant. The new facility would produce lightweight 
carbon fibers for the passenger compartment of BMW's new all-
electric vehicle, the i3.
    A key factor in locating the new plant was availability of 
a reliable, renewable, and affordable energy source. An 
important selling point for BMW and its customers was the 
vehicle had to have the minimal lifecycle emissions impact in 
its development. BMW and SGL narrowed their search to sites 
with hydropower.
    Ultimately, BMW/SGL selected the U.S. site in Moses Lake, 
Washington, for their new plant, which opened in 2011. The 60-
acre site brought in an initial investment of a hundred million 
dollars and created 80 good manufacturing jobs, plus another 
200 construction jobs. The plant has plans for potential 
expansion.
    The point is that more and more companies are moving their 
operations, building new facilities, and creating jobs in areas 
close to hydro resources. The reason for this trend is that 
renewable hydropower provides its customers one of the most 
affordable, reliable sources of electricity in America. Each 
megawatt hour of clean, renewable hydropower exported from the 
U.S. to Canada in excess of the fair value of the Canadian 
entitlement reduces the potential for this type of beneficial 
growth that we have seen with BMW/SGL. This lost opportunity 
must be recognized.
    In closing, Grant PUD wants to ensure a fair and equitable 
outcome for the customers we serve. The primary benefit for 
rebalancing the Canadian entitlement would be to preserve an 
important renewable domestic energy for the entire western 
United States. It's simply unacceptable to give away a 
disproportionate amount of this clean, renewable domestic 
resource and the opportunity to create U.S. jobs along with it.
    Grant PUD appreciates the committee's interest in this 
important matter and for convening today's field hearing.
    [The prepared statement of Mr. Webb follows:]
   Prepared Statement of Anthony Webb, General Manager, Grant County 
              Public Utility District, Ephrata, Washington
                              introduction
    Good morning Chairman Hastings and members of the Committee, I am 
Tony Webb, General Manager of Public Utility District No. 2 of Grant 
County, Washington (Grant PUD) located in the central region of the 
State of Washington.
    Grant PUD is a consumer-owned utility that serves 90,000 residents 
within 2,800 square miles of Grant County. This rural, predominantly 
agricultural area is bordered on the west by the Columbia River. 
Nationally, Grant County is an agricultural leader ranking 5th in the 
United States for irrigated acreage and 11th for value of crops 
produced.
    Our local economy is based on diversified agriculture. Our major 
power consumers include: food processors, frozen food storage, data 
centers, silicon production, steel fabrication and auto carbon fiber 
manufacturing.
    Grant PUD owns significant electric generation assets, all of which 
are 100 percent renewable. Hydropower, small irrigation-canal hydro and 
wind power comprise our total combined generating capacity of over 
2,000 megawatts, with a vast majority of that capacity coming from our 
two hydropower developments, Priest Rapids and Wanapum Dams on the 
Columbia River.
    These valuable renewable resources support reliable electricity 
delivery, clean air and significant economic benefits for millions of 
families and businesses throughout the Pacific Northwest.
    In addition, Grant PUD coordinates mid-Columbia River hydro 
operations for the region to optimize power generation and river flows 
among seven dams: Grand Coulee, Chief Joseph, Wells, Rocky Reach, Rock 
Island, Wanapum and Priest Rapids.
    Grant PUD is a member of the Columbia River Treaty Power Group, a 
coalition of over 80 electric utilities, industry associations and 
other members that depend on the renewable energy produced by the 
Columbia River.
                   rebalance the canadian entitlement
    My message today is simple: Rebalancing the Canadian Entitlement 
should be a top priority in the U.S. Entity's final recommendation.
    What's at stake is lost opportunity for the United States . . . 
specifically, the potential that future jobs could be transferred 
north.
    Grant PUD is one of three public utility districts that own and 
operate non-Federal hydropower dams on the Mid-Columbia River. 
Together, the three Mid-Columbia PUDs pay 27.5 percent of the Canadian 
Entitlement.
    By 2024, it will be 60 years since the Columbia River Treaty was 
ratified. Article VII of the Treaty defines downstream power benefits 
as the ``difference in hydroelectric power capable of being generated 
in the U.S. with and without the use of Canadian storage.'' However, 
post-2024, this becomes the wrong baseline upon which to determine any 
Canadian Entitlement. Payments returned to Canada after the initial 60-
year agreement should be based on the benefits of ongoing coordinated 
operations today between the United States and Canada--not on a 
comparison of conditions before and after construction of the storage 
dams 60 years ago.
    As identified by the Bonneville Power Administration, the actual 
power benefit to the United States of ongoing coordinated operations 
with Canada has reduced significantly over the past 50 years and is now 
worth a fraction of the current Canadian Entitlement.
    If the Treaty continues post-2024, we are concerned that U.S. 
electric consumers, including our local customers, will be paying too 
much for diminishing downstream power benefits. While the U.S. Entity 
acknowledges the need to rebalance the Canadian Entitlement, we believe 
this is the single most important issue that must be addressed in the 
final recommendation because of the potential and significant lost 
economic opportunity to the Unites States and the region.
                hydropower--expanding u.s. manufacturing
    I will illustrate this point using one of Grant PUD's newest 
industrial customers as an example.
    German automaker BMW, in a joint venture with SGL Group, a major 
German carbon-products company, conducted a worldwide search to locate 
their new state-of-the-art auto carbon fibers manufacturing plant. The 
new facility would produce lightweight carbon fibers for the passenger 
compartment of BMW's new all-electric vehicle, the i3.
    A key factor for locating the new plant was the availability of a 
reliable, renewable and affordable energy source. An important selling 
point for BMW and its customers was a vehicle that had minimal life-
cycle emissions impact in its development. BMW/SGL narrowed their 
search down to two locations--one site in the United States (served by 
Grant PUD) and a site in eastern Canada. Both locations provided a 
reliable, renewable energy source--hydropower.
    Ultimately, BMW/SGL selected the U.S. site in Moses Lake, 
Washington for their new auto carbon fibers plant, which opened in 
2011, due to the affordability, availability and reliability of 
renewable hydropower. The 60-acre site brought an initial investment of 
$100 million and created 80 good manufacturing jobs, nearly all from 
the region, plus another 200 construction jobs. The plant has plans for 
potential expansion as well.
    The point is that more and more companies are moving their 
operations, building new facilities and creating jobs in areas close to 
hydropower resources. The reason for this trend is that renewable 
hydropower provides its customers one of the most affordable and 
reliable sources of electricity in America, while boosting corporate 
sustainability goals. Each megawatt hour of clean, renewable hydropower 
exported from the United States to Canada, in excess of the fair value 
of the Canadian Entitlement, reduces the potential for the type of 
beneficial growth we have seen at BMW/SGL. This lost opportunity must 
be recognized.
                               conclusion
    In closing, Grant PUD wants to ensure a fair and equitable outcome 
for the customers we serve. The primary benefit for rebalancing the 
Canadian Entitlement would be to preserve an important renewable, 
domestic energy resource for the entire western United States. 
Hydropower is a beneficial and cherished resource developed by our 
country for the reliability of our power system. It is simply 
unacceptable to give away a disproportionate amount of this clean, 
renewable, domestic resource and the opportunity to create future U.S. 
jobs along with it.
    Grant PUD appreciates the Committee's interest in this important 
matter and for convening today's Field Hearing. I look forward to 
answering any questions that Committee members may have.
    Thank you.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Webb.
    Now I'll recognize Mr. Rick Crinklaw, who is the general 
manager of the Lane Electric Co-op in Eugene.
    Mr. Crinklaw, I will recognize you for 5 minutes.

  STATEMENT OF RICK CRINKLAW, GENERAL MANAGER, LANE ELECTRIC 
                  COOPERATIVE, EUGENE, OREGON

    Mr. Crinklaw. Thank you, Chairman Hastings, Ranking Member 
DeFazio.
    Thank you for this opportunity to testify on behalf of the 
member consumers of Lane Electric Co-op. Lane Electric is an 
electric distribution utility headquartered in Eugene, Oregon, 
and I'm very proud to say that we serve a large portion of 
Congressman DeFazio's congressional district.
    I also wanted to acknowledge Congressman DeFazio's years of 
service and support for rural electric co-ops like Lane 
Electric and Lane Electric's members who have benefited greatly 
from his service and advocacy on their behalf. I'm grateful for 
the committee's focus and attention on the future of the 
Columbia River Treaty. Lane Electric's members in rural Lane 
County are greatly impacted by the treaty today, and they have 
a big stake in any future commitments made by the United 
States.
    Copies of my formal written testimony have been provided to 
the committee, therefore, in respect for your time, I will 
briefly emphasize a couple of areas: First, the need to 
rebalance the Canadian entitlement; and, two, concerns 
regarding ecosystem proposals.
    Regarding the first issue, the need to rebalance the 
Canadian entitlement, I feel this an absolute necessity. It 
must reflect actual benefits based on today, not the '60s or 
'70s. The treaty must recapture one of the original intents: to 
share power benefits equitably.
    As part of the U.S. Entity's review of the Columbia River 
Treaty, BPA and the U.S. Army Corps of Engineers has studied 
the Canadian entitlement and determined that Canada now 
receives significantly more benefits under the treaty than does 
the United States. The scale of that imbalance has been talked 
about in previous testimony here today.
    Now, the Columbia River Treaty cannot be changed until 
2024, but electric consumers of the Pacific Northwest should 
not be expected to continue sending billions of dollars in 
clean and renewable hydropower to Canada for decades to come. 
Using Lane Electric as an example, the following is the impacts 
on my members.
    The estimated annual cost of the Canadian entitlement for 
Lane Electric is approximately $900,000 annually. For the 
average Lane Electric member, that translates to $5.50 per 
month or $66 a year. For 2014, Lane Electric will increase 
rates by 5.4 percent, largely influenced by the recent increase 
in Bonneville's wholesale power rates. Ironically, the revenue 
derived by our 2014 rate increase is comparable to our cost on 
the Canadian entitlement annually.
    Though $5.50 per month may seem like a modest amount, it's 
not for many Lane Electric members. Consider these statistics. 
High unemployment is a persistent problem in rural Lane County. 
Thirty-nine percent of Lane County residents are eligible for 
food assistance, and 53 percent of children are eligible for 
free or reduced lunch in schools. And these figures are even 
higher in the rural portions of the county.
    The median household income in Oakridge, Oregon, which is 
served by Lane Electric, is about $25,000 a year. The median 
household income for the State of Oregon is about $50,000 a 
year.
    Chairman Hastings, Congressman DeFazio, on behalf of the 
families and the communities that Lane County serves, 
rebalancing the Canadian entitlement is simply a question of 
fairness and an opportunity to ease pressure on rates.
    The second issue I want to address is the potential of an 
ecosystem function being added to the treaty. I believe the 
final recommendation must recognize and fully account for the 
efforts already being undertaken to protect fish and wildlife 
resources in the Columbia and contribute--and its tributaries, 
and my members must get credit for what they have contributed 
and are contributing.
    Electric consumers have invested billions of dollars in 
successful fish and wildlife programs, programs and 
expenditures that I frequently explain to members what they 
have actually paid for. Again, using Lane Electric as an 
example, the following are pocketbook impacts.
    Lane Electric contributes $2.9 million annually to 
Bonneville fish and wildlife programs. This translates to $219 
per member per year. Consequently, the average Lane Electric 
customer pays a total of $285 annually to fund the Canadian 
entitlement and support Bonneville's existing fish and wildlife 
programs.
    As mentioned previously, Lane Electric continues to 
struggle economically. And another data point is the average 
low-income heating assistance a member receives a year is $250, 
just under what their obligation is for the entitlement and 
fish and wildlife programs.
    I hope I've illustrated for the committee that the Columbia 
River Treaty is a big issue for my members, as it is for most 
customers in the Pacific Northwest, and this is an issue that 
goes to the family budget for every member we serve in rural 
Lane County.
    This concludes my testimony, and thank you for this 
opportunity.
    [The prepared statement of Mr. Crinklaw follows:]
  Prepared Statement of Rick Crinklaw, General Manager, Lane Electric 
                      Cooperative, Eugene, Oregon
    Chairman Hastings and Ranking Member DeFazio, to begin with, let me 
thank you both for the opportunity to testify on behalf of Lane 
Electric Cooperative. My name is Rick Crinklaw and I am the General 
Manager of Lane Electric Cooperative, located in Eugene, Oregon. We are 
proudly located in Congressman DeFazio's District.
    Chairman Hastings, it is a pleasure to be in your District today. 
We have worked with your constituents on issues of importance to rural 
electric cooperatives and I join your constituents in thanking you for 
your support. I do however want to specifically note Congressman 
DeFazio's years of service and support for rural electrics like Lane 
Electric Cooperative. We--and I mean Lane Electric's ratepayers--have 
benefited greatly from your service and advocacy on behalf of your 
constituents.
    Lane Electric's service territory covers 2,600 square miles. The 
cities and towns Lane Electric serves in or near include Blue River, 
Cottage Grove, Creswell, Culp Creek, Dexter, Dorena, Eugene, Fall 
Creek, Lorane, Oakridge, Pleasant Hill, Veneta, Vida and Westfir. As a 
rural electric cooperative, Lane Electric is owned by our members. Our 
47 employees serve more than 13,000 customers and manage almost 1,500 
miles of power lines. I have spent my 38-year career working for 
electric cooperatives--the last 18 as Lane Electric's general manager. 
I currently serve on the Executive Committee of the Public Power 
Council, and on the Board of Directors of PNGC Power. Lane Electric is 
an active member of the National Rural Electric Cooperative 
Association. Last, and important to this hearing, Lane Electric is a 
member of the Columbia River Treaty Power Group.
    I am delighted to see this committee focus its attention on the 
future of the Columbia River Treaty. It may come as a surprise to some 
but our members in rural Lane County are greatly impacted by the 
Columbia River Treaty today and we have a big stake in any future 
commitments made by the United States.
    I would like to use my time today to illustrate for the committee 
the impact that the Columbia River Treaty has on one small rural 
electric cooperative and our members in Oregon. To do this, I want to 
address two key issues related to the Columbia River Treaty. The first 
issue is the absolute necessity to rebalance the Canadian Entitlement 
to reflect actual benefits to ratepayers like my members. The second 
issue is the broad ill-defined ecosystem function proposal, which does 
not appear to be coordinated with existing salmon recovery efforts 
across the region. These efforts are also funded in part by Lane 
Electric members and other customers of the Bonneville Power 
Administration (BPA) from all across the Pacific Northwest.
    We at Lane Electric fully appreciate that the Columbia River and 
the 60-year treaty with our Canadian neighbors has been a significant 
contributor to our region's economy, to our region's flood control 
efforts and our region's efforts to restore and recover historic salmon 
populations in the Columbia River Basin.
    When the United States and Canada negotiated the Columbia River 
Treaty in the 1960s, the two countries agreed on a mechanism to share 
the benefits provided under the treaty. Unfortunately, the negotiators 
used a set of assumptions that did not materialize to set the Canadian 
Entitlement or payment delivered in power to Canada to represent its 
share of the treaty benefits.
    As part of the U.S. Entity's review of the Columbia River Treaty, 
BPA and the U.S. Army Corps of Engineers have studied the Canadian 
Entitlement and determined that Canada now receives significantly more 
benefits under the treaty than does the United States and our electric 
customers who ultimately fund the Canadian Entitlement. According to 
the U.S. Entity, Canada may be receiving as much as 10 times the 
benefit received by the United States.
    The Canadian Entitlement is estimated to be worth between $250 and 
$350 million per year in power generated by Bonneville and the non-
Federal projects along the Columbia River. A recent U.S. Entity study 
estimates that the United States receives approximately $25 million in 
benefits related to the treaty.
    The Columbia River Treaty cannot be changed until 2024. What this 
means is that electric customers in the Pacific Northwest are already 
obligated to send between $2.5 and $3.5 billion in power benefits to 
Canada over the next decade. As the U.S. Government reviews the future 
of the treaty in 2014, we must make rebalancing the Canadian 
Entitlement the highest priority to the United States. Electric 
customers in the Northwest should not be expected to continue to send 
billions of dollars in clean, renewable hydropower to Canada for 
decades to come. My members expect their government to forcefully 
address the Canadian Entitlement issue with Canada. The treaty's 
hydropower benefits must be shared on an actual basis rather than a 
series of antiquated flawed assumptions. Rebalancing the Canadian 
Entitlement is simply a question of fairness for the communities and 
families we serve.
    Here are a few examples of how the Canadian Entitlement impacts 
Lane Electric Cooperative.

    <bullet> The estimated annual cost of the Canadian Entitlement for 
            Lane Electric is $900K annually. For the average Lane 
            Electric member/consumer the cost is $5.50 per month, or 
            $66.00 per year.
    <bullet> For 2014, Lane Electric will increase rates by 5.4 
            percent. Ironically, the 2014 rate increase is comparable 
            to our portion of the Canadian Entitlement. Bonneville has 
            increased rates several times in recent years; these 
            increases are difficult to pass on in economically 
            challenged areas. I can tell you from daily experience, 
            electric rate increases are difficult for many families to 
            manage in our service territory.
    <bullet> Recall the U.S. Entity study that suggests Canada receives 
            a benefit that could be 10 times higher than enjoyed on the 
            U.S. side of the border. For us, that means we send $900K 
            to Canada in the form of the Canadian Entitlement and 
            receive $90,000 annually in coordinated hydropower 
            benefits. To us this is a significant sum of money that we 
            cannot invest in our system, our people and the communities 
            we serve.
    <bullet> High unemployment is a persistent problem in rural Lane 
            County. Thirty-nine percent of Lane County residents are 
            eligible for food assistance and 53 percent of children are 
            eligible for free and reduced meals at schools. These 
            figures are higher in the rural parts of Lane County where 
            we are located. The median household income of Oakridge, 
            Oregon, served by Lane Electric, is $25,000. The median 
            household income for the State of Oregon is $49,000, almost 
            twice that of Oakridge. Our members and consumers cannot 
            afford the Canadian Entitlement today. And we cannot make 
            an open ended commitment to continue the current 
            inequitable arrangement for decades to come.

    Chairman Hastings and Congressman DeFazio, for the families in my 
community, rebalancing the Canadian Entitlement is a very important 
opportunity to ease pressure on rates. The only opportunity to seek 
relief for Northwest electric customers to the Canadian Entitlement 
inequity is through the Columbia River Treaty review and renegotiation. 
Lane Electric Cooperative, and I think I can safely say all of the 
Rural Electric Cooperatives in the Northwest, needs your continued 
support to encourage the Administration to prioritize the Canadian 
Entitlement issue in 2014.
    The second issue I want to briefly address today is the potential 
inclusion of an ecosystem function in the treaty going forward beyond 
2024. At Lane Electric, we believe the Final Recommendation and the 
upcoming Obama administration treaty review process must recognize and 
fully account for efforts already being undertaken under existing 
Federal and State programs to protect fish and wildlife resources in 
the Columbia River and its tributaries. Any effort to expand the Treaty 
to include ecosystem function must not interfere with or adversely 
affect these ongoing programs, as they are publicly developed programs. 
Northwest electric customers have invested billions of dollars already 
and will continue to invest hundreds of millions of dollars in fish and 
wildlife measures each year.
    We appreciate that the U.S. Entity has taken steps to recognize the 
existing ecosystem efforts and investments made by our ratepayers. We 
do have ongoing concerns with the ecosystem function proposals. The 
ecosystem function proposal, including programs under the Resource 
Committee's jurisdiction, is vague and offers little certainty and 
structure. These uncertainties could diminish, or threaten altogether, 
ecological benefits achieved after years of detailed studies, tireless 
investigations and negotiations, and at times, litigation. The 
uncertainties associated with ecosystem function create significant 
risk to environmental resources and electric customers in the 
Northwest.
    This issue is also a pocketbook issue to the members of Lane 
Electric.

    <bullet> Lane Electric contributes $2.9 million annually to the 
            Bonneville Power Administration's fish and wildlife 
            programs. This translates into an average annual 
            contribution of $219 per Lane Electric ratepayer.
    <bullet> As stated above, rural Lane County continues to struggle 
            with higher unemployment rates and heavy reliance upon food 
            assistance program. Another data point to note, the average 
            LIHEAP payment in our service territory is $250.
    <bullet> The average Lane Electric consumer pays a total of $285 
            annually to fund the Canadian Entitlement and support the 
            BPA's fish and wildlife programs.

    Our members are aware that we support Bonneville's fish and 
wildlife programs with ratepayer dollars. As General Manager of an 
electric cooperative, I am accountable to our members and consumers. I 
ask the same of the U.S. Entity, the Congress, and the Obama 
administration. Please be accountable in reviewing an enhanced 
ecosystem function in the Columbia River Treaty. Please hold proponents 
of an enhanced ecosystem function accountable to the public as well. 
When I talk to Lane's members about the region's fish and wildlife 
expenditures, they often respond with a sense of pride over our success 
in recovering salmon. They seem to embrace that which they think is 
reasonable, and fair. We may all disagree with some parts of our 
massive regional investment in the ecosystem, the world's largest 
Endangered Species recovery program, but this I know to be true: many 
of our customers believe that our current investments represent a broad 
consensus of scientific opinion. I can explain it to them, and they 
understand it. However, this not the case with the new proposed Treaty 
ecosystem function. When they ask me what is proposed, and why, I only 
have one answer: more for ecosystem function, and you will be asked to 
pay for it.
    Our members, and many in the public power community, are concerned 
that proposals to inject ecosystem functions at the Treaty level could 
have unintended consequences for existing, publicly developed programs 
in the United States that represent significant investments for 
electric customers. Treaty-mandated changes in flow regimes, fish 
passage operations, or similar requirements could conflict or interfere 
with ongoing programs in the Columbia River Basin.
    Mr. Chairman and Congressman DeFazio, again, on behalf of Lane 
Electric and our members, we believe any further consideration of an 
ecosystem function must be closely examined including by the Resource 
Committee and Members of Congress from the Northwest who best know the 
key issues impacting hydropower, rate increases, flood control, 
navigation, and the many Federal and non-Federal fish and wildlife 
enhancement initiatives.
    I hope I have illustrated to the Committee today that the Columbia 
River Treaty is a big issue to my members. This issue goes to the 
family budget of every member we serve in rural Lane County. I 
appreciate that you both understand this very real impact on your 
constituents.
    This concludes my testimony. Thank you for the opportunity to 
testify today. Lane Electric and the public power community in the 
Northwest will remain engaged in the future of the Columbia River 
Treaty and I hope you will call upon us if we may be of assistance to 
your work.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Crinklaw, for your 
testimony.
    Next I'll recognize Ron Reimann, who is president of the 
Columbia-Snake River Irrigators Association, he's also a 
commissioner for the Port of Pasco here in Pasco.
    Mr. Reimann, you're recognized.

   STATEMENT OF RON REIMANN, PRESIDENT, COLUMBIA-SNAKE RIVER 
    IRRIGATORS ASSOCIATION AND COMMISSIONER, PORT OF PASCO, 
                     KENNEWICK, WASHINGTON

    Mr. Reimann. Thank you, Chairman and Ranking Member.
    On a personal note, Doc, is it just me, or am I the only 
one up here with a suit and tie?
    Mr. DeFazio. You're the only one who's comfortable.
    The Chairman. I don't know where Rella messed up, but she 
must have messed up.
    Mr. Reimann. I get to wear three hats today, so I'll be 
brief. I'm a Port of Pasco commissioner. The Port is an 
economic engine for Pasco and Franklin County, you may have 
flown into our airport and over the Port's processing center 
development. I'm also president of the Columbia-Snake River 
Irrigators Association. We represent approximately 250,000 
acres of all types of irrigated crops.
    I'm also secretary/treasurer and, I might add, one of the 
better equipment operators of T & R Farms, Inc., a family owned 
and operated irrigated farm. We are not a large operation 
compared to many, but we produced enough potatoes on our farm 
this fall to feed 640,000 people for a year.
    All of these three hats I wear are dependent on the 
reliable and economically practical water supply from the 
Columbia River. I am at somewhat of a loss for the purpose of 
this hearing. I understand public comment was to be submitted 
by the end of October, and the regional recommendation by the 
end of December. I have read the regional recommendation 
briefing version. It sounds very good. Reads like a book, that 
everybody ends up married, rich, or just plain happy.
    This is not a story. This is about my son, my 
granddaughter's future, and everybody else's future that lives 
in the Pacific Northwest. And it seems like everybody else I 
know no longer has faith that our legislators or agencies will 
do the right thing. What's more disturbing is we don't have the 
faith that they know how to do it anymore.
    I read the disclaimer that this treaty was written back in 
the '60s. My father-in-law entered into a potato seed contract 
with a seed grower in the early '60s. We still operate on that 
same contract three generations later. Maybe you need some old 
farmers from Canada and the United States to write the next 
treaty. Better yet, people who just care enough to protect and 
use our river in the best interest of all.
    What happened to a coalition of legislators from the 
Northwest stepping forward to protect our rights? Sometimes it 
takes common sense to make something work. I am afraid the 
citizens of the Pacific Northwest are out of luck once again.
    Thank you.
    The Chairman. Thank you very much, Mr. Reimann.
    I'll recognize Mr. Greg Haller for the Pacific Rivers 
Council, recognized for 5 minutes.

STATEMENT OF GREG HALLER, CONSERVATION DIRECTOR, PACIFIC RIVERS 
                   COUNCIL, PORTLAND, OREGON

    Mr. Haller. Chairman Hastings, Ranking Member DeFazio, 
thank you for the opportunity to testify in the hearing on the 
future of the Columbia River Treaty. My name is Greg Haller, 
I'm the conservation director for Pacific Rivers Council.
    My testimony will focus on four or five issues regarding 
the treaty and recommendations for modernizing it, for the 
future of hydropower in the basin, congressional authorization 
for review of flood risk management, and expanding the U.S. 
Entity to include regional expertise on ecosystem function.
    We strongly support the U.S. Entity for recommending 
ecosystem function as the third primary purpose of the treaty. 
Modernizing the treaty offers a unique opportunity to effect a 
basis to get out of the long-term health of the Columbia River. 
This effort will be critical for the sustainability of wild 
salmon runs as the challenges of climate change take hold.
    The elevation of the ecosystem function accurately reflects 
the high value that citizens of the region place on the health 
of the river and on salmon runs generally. It also reflects the 
reality in today's Northwest that ecosystem health and economic 
health are inextricable.
    Because there is still no lawful Federal plan to restore 
endangered Columbia-Snake salmon and steelhead and because all 
but one of ESA's listed stocks are still far below the level 
needed for recovery, there's still much work to be done, 
particularly regarding flow management, improving river 
temperatures which are dangerously high in both the Columbia 
and Snake, restoring habitat, improving passage for lamprey, 
reconnecting flood plains, and restoring salmon to areas now 
blocked by dams.
    Modernization of the treaty will allow the region to 
address some of these issues by integrating strategies more 
consistent with regional salmon recovery and health goals.
    Regarding the future of hydropower in the basin, the region 
and nation obviously have benefited greatly from the renewable 
energy supply generated by the Columbia River. These benefits, 
however, have come at the expense of salmon and people. 
Importantly, the dynamics of a changing energy portfolio, 
including the rapid development of wind power and the 
increasing use of natural gas to meet peak power demands, 
coupled with societal demands to restore salmon, point to a 
future less dependent on hydropower for peaking power needs.
    Further, climate change will likely decrease the overall 
reliability of the hydro system. Therefore, power production 
under a modernized treaty must account for and promote 
development of non-carbon energy in the Northwest, consistent 
with the Northwest Power and Conservation--I think it's the 
Northwest Conservation Power Planning.
    Modernizing flood risk management represents a rare 
opportunity to positively affect the river ecosystem at the 
basin scale through a comprehensive public planning process. 
This effort should integrate new analysis of flood risks under 
predicted climate change scenarios with an assessment of how 
renewable and conventional energy sources will affect the 
demand for power produced in the basin.
    Further, it will involve a review of the adequacy of 
existing flood control infrastructure and an assessment of 
where flood plains can safely be reconnected to the river. This 
review should also include funding for the integration of 
modern precipitation and runoff forecasting techniques in the 
seasonal planning processes. The potential benefits of a 
modernized flood risk management extend to other treaty 
purposes, as well. And I appreciate the comments of Mr. Mainzer 
in finding win-win-win solutions.
    Fuller reservoirs not only enhance reservoir productivity 
and provide flexibility to provide additional summer flows, 
they also enhance system hydropower capacity and recreational 
opportunities. These types of scenarios should be fully 
explored. I think this issue is particularly salient with 
recent biological movements concerning Federal Emergency 
Management Agency's national flood insurance program and how 
that program affects salmon in Oregon and Washington.
    Though we acknowledge concerns about the calculation of the 
size of power deliveries made to Canada pursuant to the treaty, 
we strongly believe that calls to terminate in order to reduce 
the so-called entitlement are short-sighted. The United States 
must be cautious in its approach to the suggestion of it 
reducing or eliminating the entitlement to be a primary driver 
in treaty negotiations or as a basis to terminate the treaty to 
avoid power deliveries.
    The significance of entitlement power deliveries as an 
inducement to British Columbia and Canada to negotiate changes 
should not be underestimated, particularly as Ms. Eichenberger 
pointed out, that Canada can point to other benefits provided 
to the United States from operating the treaty dams.
    Finally, PRC believes that an ecosystem expert should be 
added to the U.S. Entity to better prepare for negotiations 
with Canada and to better implement this 50-year treaty for 
today's Northwest. We suggest either the 15 Columbia Basin 
tribes, U.S. Fish and Wildlife Service, NOAA Fisheries, or the 
Environmental Protection Agency.
    In closing, we believe the regional recommendation lays a 
solid foundation to begin negotiations with Canada, and while 
some differences may remain, these differences should not be 
interpreted as reasons not to proceed with negotiations.
    Thank you.
    [The prepared statement of Mr. Haller follows:]
   Prepared Statement of Greg Haller, Conservation Director, Pacific 
                    Rivers Council, Portland, Oregon
    Chairman Hastings, Congressman DeFazio, and members of House 
Committee on Natural Resources, thank you for the opportunity to 
testify on ``The Future of the U.S.-Canada Columbia River Treaty--
Building on 60 Years of Coordinated Power Generation and Flood 
Control.'' The Pacific Rivers Council (PRC) is a regional river 
conservation group, located in Portland, Oregon, which works throughout 
the Columbia Basin and northern California to protect rivers, their 
watersheds and the native aquatic species that depend on functioning, 
high quality aquatic and riparian ecosystems. Due to our focus, we have 
been actively involved in the Treaty review process, which we believe 
offers a unique opportunity to positively affect the long-term health 
of the Columbia River. We strongly support the U.S. Entity's conclusion 
in its Regional Recommendation that modernizing the Treaty with Canada 
is in the best interest of the United States and the river's ecosystem.
support for modernizing the treaty with ecosystem function as a primary 
                                purpose
    PRC commends the U.S. Entity for recommending ecosystem function as 
a primary purpose of a modernized Treaty, along with flood risk 
management and hydropower production. The elevation of ecosystem 
function as a primary purpose accurately reflects the high value that 
citizens of the Pacific Northwest place on the health of the river and 
is consistent with nationally held opinions about how society should 
manage its interaction with the environment, as evidenced by 
environmental laws such as the Endangered Species Act (ESA) and the 
Clean Water Act (CWA). It also reflects the reality in today's 
Northwest that ecosystem health and economic health are inextricable.
    Ecosystem function may generally be defined as the physical and 
chemical interaction of living components (plants, animals and 
microorganisms) with non-living components (air, water, rocks) which 
produce and sustain an environmental community rich in abundance and 
diversity, resilient to natural processes and disruptions so that it 
may persist into the future. In the context of the Columbia River, 
ecosystem function are those processes that create environmental 
conditions, i.e., natural flow patterns, good water quality, cool river 
temperatures, connected floodplains and a healthy estuary that support 
and sustain, among other species, strong populations of wild salmon for 
present and future generations. A vital corollary to any definition is 
that, in the Northwest, ecosystem function underlies economic function. 
The health of the river is the basis for every economic activity 
undertaken in the basin.
    As a result of dam building throughout the Basin, the Columbia 
River is now a highly fragmented and mechanized system, with degraded 
habitat, poor water quality and numerous ESA-listed salmon and 
steelhead runs. Because there is still no lawful Federal plan to 
restore endangered Columbia-Snake salmon and steelhead, and because all 
but one of ESA-listed stocks are still far below levels needed for 
recovery, there is still much work to be done, particularly regarding 
flow management, improving river temperatures, reconnecting floodplains 
and improving passage for salmon. Modernization of the Treaty will 
allow the region to address some of these issues by integrating 
strategies more consistent with regional salmon recovery and ecosystem 
health goals.
    A critical consideration for a modernized Treaty is climate change. 
Climate change scenarios predicted for the region do not bode well for 
the future of salmon and other cold-water species. Already, river 
temperatures in the Columbia and Snake are dangerously high for 
extended periods in the summer and early fall. Treaty negotiations 
offer the region the chance to plan for operations that will address 
the challenges of low flows and elevated temperature.
    We believe the issue ecosystem function is particularly salient to 
Treaty negotiations, given recent biological opinions concerning the 
impact of the Federal Emergency Management Agency's (FEMA) National 
Flood Insurance Program on ESA-listed salmon in Oregon and Washington. 
As such, FEMA requirements at the local level should be integrated into 
the larger flood review process, described below.
    Conversely, not modernizing the Treaty will increase the risk of 
extinction for salmon. Absent a modernized Treaty, the Army Corps of 
Engineers must demonstrate that is has ``effectively used'' all U.S. 
storage capacity for system flood control before it can ``call upon'' 
Canadian reservoirs for additional storage. Proceeding with this type 
of flood risk management may require larger and more frequent drawdowns 
at Lake Roosevelt and perhaps at all U.S. storage reservoirs, including 
non-treaty dams such as Dworshak and Brownlee. Such operations would 
could limit system capability to provide needed spring and summer flows 
for salmon.
                 the future of hydropower in the basin
    The region and nation have benefited from the renewable energy 
generated by the Columbia River. But these benefits have come at the 
enormous cost of salmon and the river's ecosystem. Now, the people and 
the courts demand a different and better future for clean water and 
wild salmon runs. As climate change manifests as changed precipitation 
and runoff patterns, the hydrosystem will be under increasing pressure 
to reliably meet peak power needs and provide flows for fish. 
Importantly, the dynamics of a changing energy portfolio, including the 
rapid development of wind and solar power and the increasing use of 
natural gas to meet peak power demands, point to a potentially 
different future for hydropower operations on the Columbia, one 
potentially much more compatible with salmon recovery. These changes 
necessitate a forward thinking planning process that seeks to build a 
future for hydropower and salmon that reflects the needs and challenges 
of the 21st century. Treaty negotiations offer this opportunity.
    Power production under a modernized Treaty must account for and 
promote development of non-carbon energy sources in the Northwest, 
including conservation and renewable resources, consistent with the 
region's goals as stated in the Northwest Power and Conservation 
Council's Sixth Northwest Conservation and Electric Power Plan. Energy 
efficiency and new renewables are the dominant growth areas in the 
region's energy supplies. Based on expanded power production model, the 
United States and Canada should re-evaluate the division of surplus 
power generation between the two nations.
 columbia river basin flood risk policy review--modernizing flood risk 
                               management
    Modernizing the Treaty represents an opportunity to positively 
affect the river ecosystem at the Basin scale through a comprehensive, 
public planning process that would seek to modernize flood risk 
management. This effort should integrate new analysis of flood risk 
under predicted climate change scenarios with an assessment of how 
renewable and conventional energy sources will affect the demand for 
hydropower produced in the Basin. Further, it will involve a review of 
the adequacy of existing flood control infrastructure and an assessment 
of where floodplains can safely be reconnected with the river. It 
should also include funding for the integration of modern precipitation 
and runoff forecasting techniques into seasonal planning processes. 
Flood risk management based on monthly forecasts has often resulted in 
unnecessarily large reservoir drawdowns, missed refill targets and 
diminished flows and higher river temperatures. With improved 
forecasting and modeling, reservoirs can safely be maintained at higher 
levels to aid both anadromous and resident fish species.
    The potential benefits of modernized flood risk management extend 
to other Treaty purposes. Fuller reservoirs not only enhance reservoir 
productivity and provide flexibility to provide additional summer 
flows, they also enhance system hydropower capacity and recreational 
opportunities. These types of win-win scenarios can be fully explored 
in an expanded review process.
    We believe the issue of flood risk review and ecosystem function is 
particularly salient given recent biological opinions concerning the 
impact of the Federal Emergency Management Agency's (FEMA) National 
Flood Insurance Program on ESA-listed salmon in Oregon and Washington.
    Because the Army Corps' current position is that the agency will 
not move forward with a basin-wide flood risk management review absent 
congressional authorization, we strongly urge Congress, particularly 
Northwest Members of Congress, to direct the Corps to perform this 
review, using the best available science in a fully transparent and 
public process.
                        the canadian entitlement
    Though we acknowledge the concern about the calculation and size of 
power deliveries made to Canada pursuant to the current Treaty, we 
strongly believe that the United States must be cautious in its 
approach to suggestions that reducing or eliminating the Canadian 
Entitlement be a primary driver in Treaty negotiations, or as a basis 
to terminate the Treaty to avoid power deliveries. The significance of 
entitlement power deliveries as an inducement to British Columbia and 
Canada to negotiate changes to the Treaty that the United States may 
seek should not be underestimated, particularly when Canada can point 
to other benefits provided to the United States from operations of 
Canadian Treaty dams, including predictability of hydropower 
forecasting, flood control, recreation, navigation, water supply and 
ecosystem benefits.
    The U.S. analysis that has been done to determine what the cost of 
termination to the United States in reduced hydropower flexibility and 
in resorting to ``called upon'' flood control, is based upon 
assumptions of how Canada might operate in the absence of the Treaty. 
Instead, this should be a bilateral analysis. Canada estimates the 
benefits to the United States of flood control over the lifetime of the 
current Treaty at $32 billion, and in 2012 alone at over $2 billion.\1\ 
Those numbers do not address the enormous economic benefit of 
predictable hydropower, recreation, navigation, water supply and 
ecosystem benefits. Some interests in the region have voiced concerns 
regarding the cost of doing more for salmon and the health of the 
river. We suggest that a cost-benefit analysis of the existing Treaty's 
compared to a modernized Treaty would benefit the dialog between both 
nations. Supporting the need for such an analysis are suggestions that 
revaluation of the Entitlement calculation include ``credits'' for 
actions currently implemented pursuant to court order or the ESA. We do 
not see a legal, analytic or commonsense basis for creating ``credits'' 
for compliance with the Endangered Species Act (or any law). Such one-
sided analysis ignores the very large benefits accruing to Northwest 
communities and people from compliance with such laws. We also note 
that the Federal dam system on the Columbia and Snake Rivers is not in 
compliance with the Endangered Species Act, and has not been since 
2000.
---------------------------------------------------------------------------
    \1\ Province of British Columbia, ``U.S. Benefits from the Columbia 
River Treaty--Past, Present, and Future: A Province of British Columbia 
Perspective,'' June 25, 2013.
---------------------------------------------------------------------------
       a representative for ecosystem function in the u.s. entity
    An ecosystem-expert should be added to the U.S. Entity, to better 
prepare for negotiations with Canada and to better implement this 50-
year Treaty for today's Northwest. The Treaty process should include a 
third agency or sovereign in the U.S. Entity, co-equal to Bonneville 
Power and the Army Corps of Engineers, for both negotiations and 
implementation of the Treaty. We suggest that the 15 Columbia Basin 
Tribes or U.S. Fish and Wildlife Service, NOAA Fisheries or 
Environmental Protection Agency represent ecosystem function.
                        water supply allocation
    PRC is concerned about the Regional Recommendation's call for a 
process to allocate additional water from Canada for out-of-stream 
uses. Given existing streamflow deficits, allocating additional spring 
and summer flows for out-of-stream uses would be inconsistent with the 
elevation of ecosystem function as a primary purpose of a modernized 
Treaty. Only after instream uses are fully supported should analysis of 
consumptive and other uses be considered. Further, the Canadian 
government has already signaled that water supply is one of the many 
benefits it should be compensated for, and therefore, any additional 
out-of-stream use could be viewed as an additional benefit requiring 
additional compensation.
                               conclusion
    In closing, PRC believes that modernizing the Treaty to include 
ecosystem function as a primary purpose is in the best interest of the 
United States and the Columbia River's ecosystem and the regional 
economy. Treaty negotiations, changes in energy demand, new sources of 
renewable power, and the challenges of climate change combine to create 
a unique opportunity to improve the health of the river and to 
modernize governance of the Columbia. And while some differences may 
remain unresolved among the region's stakeholders, States, and Native 
American Indian Tribes about the Recommendation, these differences 
should not be interpreted as reason not to proceed with negotiations 
with Canada. Rather, these differences merely highlight the importance 
and complexity of the many values the Columbia provides to society.

                                 ______
                                 

    The Chairman. Thank you, Mr. Haller.
    Now I'll recognize Mr. Paul Amos, who is the president of 
the Columbia River Pilots out of Portland, Oregon.
    Mr. Amos, you are recognized for 5 minutes.

   STATEMENT OF PAUL AMOS, PRESIDENT, COLUMBIA RIVER PILOTS, 
                        PORTLAND, OREGON

    Mr. Amos. Thank you, Chairman Hastings, Representative 
Ranking Member DeFazio. I am the president of Columbia River 
Pilots. Our organization provides navigation expertise for the 
ships transient in the Columbia River. We board in Astoria, 
Oregon, and take the ships all the way to Portland, all the 
points in between, and take them back out to the bar when it's 
time for them to leave.
    Before I became a river pilot, I spent 10 years in my 
career as a towboat captain, operating over the system; grain 
tow runs to Lewiston, Idaho, and back were my primary source of 
employment in those days. I've been continuously employed on 
the system since 1974. I appreciate the opportunity to provide 
the perspective of the navigation community in the Northwest as 
it relates to the Columbia River Treaty.
    I'll briefly highlight the importance of the river system 
for trade and transportation, and I'll relay our thoughts on 
the treaty reviews. Our economy relies on a safe and efficient 
transportation system, and that system includes roads, rail, 
air, and water. Columbia-Snake River system is a critical part 
of our Nation's water transportation portfolio, providing 
benefits to the region and the Nation as a whole.
    We are an export heavy system and play an important role in 
balancing the Nation's trade deficit. We are top in the Nation 
for the export of wheat and the second for soy. We also lead 
the West Coast in wood exports and mineral exports.
    This is a busy waterway. My colleagues and I bring in 1,400 
to 1,500 ships per year with a total vessel movement of about 
4,500 movements per year on the system. Over 42 million tons of 
international trade moved on this waterway in 2010, valued at 
over $20 billion.
    A conservative estimate of the jobs directly tied to just 
the deep draft navigation channel finds that 40,000 individuals 
rely on this waterway for their livelihood. As you know, 
substantial Federal investments have been made recently in the 
river system, including the Columbia River channel deepening, 
creating locked gates, and major jetty repairs. This waterway 
is a significant Federal infrastructure asset and any potential 
changes which may impact its safety and efficiency should be 
evaluated thoroughly.
    Regarding the Columbia River Treaty, we are most concerned 
with the suggestion by some that the existing spring and summer 
flow should be augmented through an expansion per the treaty 
agreements. Increased flows in the spring and early summer will 
increase shoaling, which will increase dredging costs and 
impact navigation safety. I have personal experience with 
increased sedimentation that occurred in the Columbia River as 
a result of higher spring and summer flows.
    The most recent example is 2011, when we had, just 6 months 
after the channel deepening project was completed, due to high 
river flows, we had that shoaling that we had to decrease the 
amount of draft we could load the ships to. The high flows that 
created the shoaling have--well, the shoaling from that one 
episode has continued for the last 3 years.
    When we can't fully load the ships, Northwest goods are 
left on the docks, which means our farmers and other producers 
are less competitive with overseas markets.
    Some are further suggesting that increased spring and 
summer flows would be accompanied by lower flows in the fall 
and winter. Lower flows at that time of year would provide even 
less water over which to navigate these increased shoals. The 
combination of these two proposals would be a one-two punch for 
the river system.
    In addition to the deep draft channel, there are other ways 
navigation would be impacted by changes to flows. The Columbia 
River Pilot access to the Columbia River jetties are of 
particular concern. We are also concerned about impacts to 
bridges, port infrastructure, port lands behind levees, and 
more. Finally, I need to note that higher flows also impact 
safe maneuvering of vessels.
    Again, from firsthand experience, I know that higher flows 
reduce the number of barges that can be safely handled by a 
towboat in swift currents. Higher flows for longer periods of 
time will keep barge operators from moving full tows which will 
impact shipments of Northwest agricultural products, petroleum, 
and all other cargo handling on the inland system.
    High flows also affect deep draft ships handling in the 
lower Columbia River, the kind of vessels my colleagues and I 
pilot. High flows mean more challenging ship handling, longer 
transient times, and difficult anchorings.
    We appreciate the work with the Corps the past 2 years to 
analyze potential impacts on navigation which could result from 
several of the flow regimens sought by some State and tribal 
members of the Sovereign Review Team. My colleagues and I also 
sincerely appreciate the efforts of the Corps and the BPA to 
construct a review process to provide a reasonable 
recommendation in the time available.
    Moving forward, we would respectfully request increased 
stakeholder involvement. It is critical that regional interests 
that would be impacted by changes in the river system--
utilities, navigation, irrigators, and flood control 
authorities--have the opportunity to participate. These 
regional interests serve millions of Northwest residents 
through power delivery, facilitating trade routes for regional 
and national cargo, producing high-value crops, and protecting 
lives and businesses from floods. Their expertise is critical 
as proposed changes to the river operations are contemplated.
    Thank you for the opportunity to testify. I welcome any 
questions you may have.
    [The prepared statement of Mr. Amos follows:]
  Prepared Statement of Capt. Paul D. Amos, President, Columbia River 
                        Pilots, Portland, Oregon
    Good morning. My name is Paul Amos, and I am the elected President 
of the Columbia River Pilots. River pilots are licensed by the State of 
Oregon to provide pilotage services for the maritime industry. Pilots 
possess the extensive local knowledge and ship-handling skills 
necessary for commercial and governmental vessels of all types and 
sizes to safely transit roughly 350 nautical miles of the Columbia and 
Willamette Rivers. These vessels are piloted in all kinds of weather, 
at all hours of the day and night, 365 days a year. River pilots have 
been engaging in this demanding profession for over 150 years, through 
one of the most lengthy and demanding pilotage grounds in the world. I 
spent 10 years of my career, before I was a River Pilot, as a towboat 
captain on the inland system and have been continuously employed on the 
system since 1974.
    I appreciate the opportunity to provide the perspective of the 
navigation community in the Northwest as it relates to the Columbia 
River Treaty.
             background on the columbia snake river system
    Our Nation's economy relies on a safe, efficient and cost-effective 
multi-modal transportation system. That system includes road, rail, air 
and water.
    The Columbia Snake River System is a critical piece of the nation's 
water portfolio, providing benefits not just to the Pacific Northwest, 
but far into the heartland of our country. We are an export heavy 
system, and play an important role in balancing the Nation's trade 
deficit. The Columbia River is the Nation's number one gateway for the 
export of wheat, and second for soy exports. We also lead the West 
Coast on wood exports and mineral bulk exports. My colleagues and I 
pilot between 1,400 and 1,500 vessels each year with a total of 
approximately 4,500 ship movements per year on this busy waterway.
    The Columbia Snake River System is essentially a river highway. It 
includes our 105-mile deep draft Columbia River channel from Astoria to 
Portland, Oregon. From there, a 360-mile inland barging channel 
stretches from Portland, Oregon to Lewiston, Idaho, with a series of 
eight locks along the way. These are the highest lift locks in the 
United States, and are among the highest in the world, with the John 
Day lock topping out at 110 feet. There are also three large jetties at 
the Mouth of the Columbia, hundreds of pile dikes, and many other 
critical pieces of Federal and port-owned infrastructure which ensure 
safe navigation and the free flow of trade.
    Over 42 million tons of international trade moved on this waterway 
in 2010, valued at over $20 billion. A conservative estimate of the 
jobs directly tied to the deep draft navigation channel finds that 
40,000 individuals rely on this waterway for their livelihood. This 
economic benefit is expected to increase in the future, supporting even 
more jobs as additional companies make use of the river system.
    This waterway is a significant Federal navigation infrastructure 
asset, and any potential changes which may impact its efficiency should 
be evaluated thoroughly. Substantial Federal investments have been made 
in both the deep draft Lower Columbia River as well as the inland 
barging channel and locks. The entire region pulled together to support 
the recently completed $200M Columbia River channel deepening project. 
We also celebrated $60M for three new downstream lock gates on the 
inland system, and significant Columbia River jetty repairs in the last 
decade. A major rehabilitation of the Columbia River jetties is on the 
horizon, along with additional lock investments and ongoing annual 
maintenance dredging on the Lower Columbia and at the Mouth of the 
Columbia.
                     columbia river treaty concerns
    The Northwest navigation community sincerely appreciates the 
efforts of the U.S. Army Corps of Engineers (Corps), Bonneville Power 
Administration (BPA), and the select representatives from the region 
who have given many hours of their time on the Sovereign Review Team 
(SRT). We recognize the efforts of the Corps and BPA to construct a 
review process to provide a regional recommendation in the time 
available.
    Throughout the Columbia River Treaty review process, the navigation 
community has called for recognition of the interconnected nature of 
flood risk management, flows for ecosystem benefit, and the ability to 
provide the federally authorized navigation channel and river 
conditions which will allow for safe and reliable navigation.
    Navigation stakeholders are most concerned with the assumption in 
the Draft Recommendation that existing spring and summer flows should 
be augmented through an expansion of present Treaty agreements. These 
augmented flows will increase shoaling which will, in turn, increase 
dredging costs and likely impact navigation safety. The document 
further suggests that these increased flows would be accompanied by 
lower flows in the fall and winter. This will provide even less water 
over which to navigate these increased shoals. Navigation stakeholders 
like me have repeatedly expressed our concern with higher flows in the 
spring and summer, and lower flows in the fall and winter. I will 
highlight a few reasons why these flow changes could present problems 
for navigation.
            potential impacts to federal navigation projects
    I have personal experience with the increased sedimentation that 
occurs on the Columbia River as a result of higher spring and summer 
flows. The most recent example of the impact of high flows occurred in 
2011. In November 2010, we celebrated the completion of the Columbia 
River channel deepening project. Just 6 months later, high river flows 
in 2011 resulted in severe shoaling that could not be adequately 
addressed by the level of funding provided to the Corps of Engineers' 
Federal dredging program. For several years, the Corps has worked to 
address the shoals that developed in 2011. Unfortunately, this severe 
shoaling meant that the Columbia River Pilots had to institute 
restrictions on how deeply ships could safely draft in our river. When 
ships can't be fully loaded, Northwest goods are left on the docks, 
which impacts whether our farmers and other regional producers can 
compete in overseas markets. I am very concerned about the ability of 
the Federal Government to provide adequate funding to address similar 
shoaling events resulting from any changes to river operations.
    In addition to the Columbia River channel, there are additional 
elements of Federal navigation infrastructure which may be impacted by 
increased flows. The Columbia River pile dike system which helps guide 
the Federal navigation channel and the movement of sediment is already 
in serious disrepair. This system would likely be undermined by higher 
flows that occur with greater frequency. We are also very concerned 
about any potential weakening of the base of the Columbia River 
jetties, the rubble-mound structures that protect the entrance to the 
system from powerful Pacific storms. A 7-year, $257 million jetty rehab 
project will hopefully begin in 2014. Any impact to the jetty 
structures below the waterline would be devastating and costly to the 
ports and communities along the 465-mile Columbia/Snake river channel, 
and to a critical national transportation infrastructure investment.
               ability to safely and efficiently navigate
    Higher flows that occur more frequently will also hinder safe 
navigation, as well as the efficiency of barging in the Federal 
navigation channel. I know from first-hand experience that high flows 
reduce the number of barges that can be safely handled by a towboat in 
swift currents, including around the dams where spill operations may be 
in effect. Higher flows for longer periods of time will undermine the 
ability of barge operators to move full tows, which will impact 
shipments of Northwest agricultural products, petroleum, and all other 
cargo handled on the Columbia Snake River System.
    We are also concerned about the impact flows may have on deep-draft 
ship handling on the Lower Columbia River, the kinds of vessels my 
colleagues and I pilot. Higher flows in spring/summer will impact 
vessel handling, transit time, and the ability to safely anchor. 
Additionally, lower flows in the fall/winter will further reduce the 
available draft on the Lower Columbia River.
    We appreciate the work of the Corps team over the past year to 
analyze potential impacts to navigation which would result from 
implementation of several of the flow regimes sought by some State and 
tribal members of the Sovereign Review Team. The desire of some for 
increased ``ecosystem flows'', and the reflection of this desire in 
early drafts of the regional recommendation with no reference to 
potential impacts to navigation and other authorized purposes, created 
great concern among many river system users. The current draft of the 
regional recommendation now notes that ``potential impacts to other 
river uses and infrastructure such as navigation, bridges, and other 
transportation features'' will be evaluated and addressed.
    I also want to note that in the past few months we have been 
provided additional opportunities to provide feedback to the U.S. 
Entity. The latest version of the Draft Recommendation, circulated by 
the U.S. Entity on November 26, 2013, represents an improvement from 
earlier drafts in its inclusion of the importance of Columbia River 
navigation to the region and the nation, and the concerns expressed by 
navigation stakeholders.
    Moving forward, we would strongly recommend increased stakeholder 
involvement. It is critical that regional interests that would be 
impacted by changes to the river system--utilities, navigation, 
irrigators, and flood control authorities--have more opportunity to 
participate. These regional interests serve millions of Northwest 
residents through power delivery, facilitating trade routes for 
regional and national cargo, producing high-value crops, and protecting 
lives and businesses from floods. Their expertise is critical as 
proposed changes to river operations are contemplated.
    Thank you for the opportunity to testify. I welcome any questions 
you may have.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Amos. And as I 
mentioned, last, but certainly not least, we have Mr. Wes 
McCart, who is the commissioner of Stevens County in the north 
part of the State.
    Mr. McCart, you're recognized for 5 minutes.

    STATEMENT OF WES McCART, COMMISSIONER, STEVENS COUNTY, 
                           WASHINGTON

    Mr. McCart. Thank you, Chairman Hastings, Ranking Member 
DeFazio.
    For the record, not only do I represent Stevens County as a 
county commissioner, I also serve as vice-chair of Eastern 
Washington Council of governments. It is made up of 10 counties 
that have come together. It was formed originally over Lake 
Roosevelt and the Teck Cominco studies that needed to be done 
for clean water and the Columbia River system. We originally 
had about 5 counties, we now have 10 and continue to grow, 
mainly over the Wolf and the Columbia River issues.
    We are opposed to adding ecosystem function as a primary 
function of the treaty. Not only is it mentioned as the first 
element in a revised treaty, it is mentioned throughout every 
element of the treaty in the recommendation of the draft 
recommendation that's out for comment now. We have all seen how 
government tends to creep. We've seen how we've had to change 
how we address salmon over time.
    The fear that we have in adding this in the treaty is that 
this will creep not only to the entire Columbia system as it 
runs through the dams, but in all the tributaries that flow 
into the system. In other words, the entire Columbia Basin.
    It's also a domestic issue. How we handle the ecosystem on 
this side of the border has been laid out in laws, lawsuits, 
and several other instruments. We should not be adding any 
domestic issues into an international treaty.
    Also, I wanted to stress, in the water supply, in-stream 
flows are listed first as the primary function for water 
supply. I find this a little bit disingenuous on behalf of the 
recommendations from the U.S. Entity, the State Department, 
over the fact that they've added ecosystem functions first and 
they've ignored irrigation.
    There's been no consensus in our region on what the U.S. 
Entity is trying to move forward to the State Department. The 
Sovereign Review Team has not a single local-elected official 
or State-elected official on that review team. I believe we are 
considered, we should be considered stakeholders as local 
electives. We have not only a duty, but a responsibility, to 
represent all of our constituents and all of the different 
interests in our area, in our local area.
    There's also a requirement in both Federal law and several 
Presidential orders for planning to be done by Federal agencies 
to be coordinated with local governments at all levels so that 
our concerns for economics, customs, and culture are all 
recognized. This has not been done to date, even though we have 
sent several requests to the U.S. Entity to do so.
    Further, we see that the recommendation of the draft 
recommendation that's out now seems to put the human element 
below the environment and the salmon. This is also not 
acceptable and against law.
    Next, there is a lack of any mention of irrigation in the 
recommendation. This has a huge impact. They do mention water 
supply, but water supply mentions municipal water supply, it 
does not mention the word irrigation, nor does it even lead one 
to the conclusion that irrigation is in consideration in the 
system. This has a huge impact on our local economies. As 
county commissioners, we're charged to protect those economies, 
so I'm very concerned that those are not included in the 
recommendation of the State Department.
    I also believe this is a national security issue. Our 
ability to feed ourselves and our troops is what makes us a 
great Nation, and we need to protect that at all levels. And as 
a local-elected official, again, I believe that's important.
    In regards to climate change that's mentioned in here, for 
several years, since the beginning of the treaty, we've had the 
flexibility in the treaty as it relates to this to deal with 
how the climate will change. I don't believe we need to add it, 
again, as an ecosystem mantra throughout the new treaty.
    We suggest that you stay the course with the treaty, the 
primary functions being flood control and hydropower. We 
recognize that some changes do need to be made to the treaty, 
especially in relationship to the Canadian entitlement and to 
protect our irrigation and our economies. But before any 
recommendation is made to the State Department, or before the 
State Department moves on anything, I ask that you help us, as 
local-elected officials, and at all levels of local-elected 
officials, to get our voices heard as a stakeholder instead of 
being relegated to a public comment.
    Thank you.
    [The prepared statement of Mr. McCart follows:]
    Prepared Statement of Wes McCart, Commissioner, Stevens County, 
                               Washington
    Honorable Chairman Doc Hastings and members of the Committee, 
please accept the following testimony for the record on behalf of 
myself and the 10 member counties of the Eastern Washington Council of 
Governments.
    Ecosystem-based function should not be an element of the U.S. 
Entity recommendation to the Department of State. Currently ecosystem-
based function is listed as the first and primary element of a 
renegotiated treaty. It is also present in every aspect of the draft 
recommendation. The existing treaty does not include every dam on the 
Columbia River system. If ecosystem function becomes the primary 
function, and it is currently listed first before hydropower and flood 
control without any mention that the order in which items are listed is 
not pertinent, then the ability exists for a renewed treaty to include 
all of the dams as well as all of the tributaries in the entire 
Columbia Basin. We should not allow for this massive expansion of the 
treaty as it would harm our citizens and our economy.
    Ecosystem function has been a domestic issue, as has irrigation, in 
regards to the current treaty. It is vital that it remains a domestic 
issue. The ecosystem and salmon are important to all of us, but there 
are domestic provisions already existing to address these issues and 
they need not be elevated to an international agreement regarding some 
of the dams on the Columbia River. The primary purpose for building 
most of the dams included in the current treaty was for hydropower and 
flood control and we owe it to all of our constituents to not expand 
this meaningful purpose to include domestic special interests. The 
current recommendation also recommends increased water supply, but 
mentions instream uses first which are also ecosystem based, and leads 
one to question whether humans will be considered or fall behind all 
ecosystem and environmental needs.
    The current draft recommendation from the U.S. Entity to the 
Department of State has no consensus and lacks any meaningful 
participation. The entire Sovereign Review Team (SRT) is made up of 
tribal members and unelected bureaucrats, 15 tribal governments, 11 
Federal agencies and 4 State members, and not a single elected 
official. The Eastern Washington Council of Governments represents 10 
counties with local-elected county commissioners making up the Council. 
We, along with several other elected county commissioners from around 
the State, have been trying to get our voices and the voices of the 
people we represent heard throughout this process to no avail as of 
yet. Federal agencies have a requirement by law and several 
Presidential orders to coordinate their efforts with local-elected 
officials to protect the local customs, culture, and economic stability 
of the areas we represent. To date this has not occurred and the 
current draft recommendation has the potential to create great harm to 
our economies and to our local customs and culture. The recommendation 
also places the human element below the environment and salmon. This is 
unacceptable and against Federal statute. County Commissioners, State 
Representatives, City Councils, and elected Public Utility District 
Commissioners have all been relegated to non-stakeholder status. The 
Eastern Washington Council of Governments was formed primarily to study 
and address issues regarding Lake Roosevelt and the Columbia River. As 
local electeds, we have the responsibility and duty to protect our 
citizens from human health hazards and the duty to protect our local 
economies, yet by being excluded from any meaningful input in the 
recommendation, our duties have been rebuffed by the SRT and the U.S. 
Entity. We believe that until the U.S. Entity has meaningful 
coordination with Local County electeds that the recommendation not to 
send to the Department of State, or if already forwarded to the 
Department of State that the recommendation is returned back with 
instructions to include coordination with local-elected officials.
    The current draft recommendation makes no mention of the word 
``irrigation.'' This was a primary purpose for the construction of 
Grand Coulee Dam and much of the non-treaty infrastructure on the 
Columbia River System. This is an important element that should be 
considered in any future changes to the treaty. All of our local, 
State, and regional economies depend upon irrigation, and the 
electricity to run the irrigation systems, for food production. No 
nation in world history has ever been defeated when it has kept its 
ability to feed itself and its troops. Irrigation of the Columbia Basin 
from both treaty and non-treaty dams allows us to feed ourselves and 
the world. This is a national security issue, as well as a local 
economic issue, that must not be forgotten or ignored.
    Climate Change, i.e.--Man-made Global Warming, is another 
recommendation made in the draft by the U.S. Entity. This is yet 
another attempt to place ecosystems above our constituents in any new 
treaty. The weather has changed constantly throughout the entire 
history of the treaty and will continue to do so. Flexibility exists in 
the current treaty to deal with changes in weather and we need not 
change the status quo.
    Obviously with flood control provisions changing in 2024 and the 
Canadian entitlement payments putting a strain on our local economies, 
there are some changes that will need to be considered in the treaty. 
We, as local-elected officials, agree and understand the need for some 
change, but we must continue to stay the course of the existing treaty 
with hydropower and flood control as the only primary purposes of any 
new or revised treaty; and any new or revised treaty must only include 
the dams currently within the existing treaty. Further, local electeds, 
and the interests of our constituents we have a duty to represent, must 
be brought to the table for meaningful input before any recommendation 
is made to the Department of State and/or any action is taken by the 
Department of State to negotiate change to a new treaty.
    Thank you for allowing me to be heard today.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. McCart, for your 
comments and thank all of you for your statements. We begin now 
with questions, we might have several rounds here.
    I want to ask Mr. Webb the first question. You alluded to 
the fact that Grant PUD, along with Chelan and Douglas, are 
part of a mid-Columbia--mid-Columbia PUDs. I have had the 
privilege of visiting every one of the dams at least once, 
sometimes multiple times. And I'm always struck by what the 
three PUDs have done with each of their facilities.
    Now, for the record, there's not a one-size-fits-all fish 
passage for all five dams, is there? Just for the record.
    Mr. Webb. Yes.
    The Chairman. One-size-fits-all? Or each dam has a unique 
way of passing fish?
    Mr. Webb. Each dam has a unique way of passing fish.
    The Chairman. Right. In other words, the same fish passage 
is not the same on all five dams?
    Mr. Webb. Yes.
    The Chairman. OK. What I, listening to the testimony here, 
certainly hearing from my constituent staff as the draft came 
out, there has been, and several of you mentioned, the concern 
of adding the ecosystem in there.
    Given what you have done, and I'll ask you to speak, 
obviously, for Grant PUD, but if that's consistent, if you can 
speak about Chelan and Douglas, adding an element like that and 
the unknowns that may come from adding that element in there, 
what do you think--how do you think that would affect your work 
on fish passage at your respective dams?
    Mr. Webb. I think from a physical standpoint, and I would 
speak from Grant first, is I think physically, and we're just 
completing our fish bypass system at the Priest Rapids Dam, and 
we've already completed one of them, and it's been successful. 
That was a couple of years ago. So, you know, from my point of 
view, I would have concerns with what is that next step that we 
want to take.
    Because I think, from our point, and this is more from a 
power group standpoint, is that I think our commitments in this 
region, we've met those commitments, and I think our practice 
has been reflected that it's been successful. So, physically, I 
would be concerned with--I don't know what else we could do 
physically.
    You heard from General Kem that, you know, trying to manage 
the water in a different way scientifically doesn't make sense, 
so I think from that standpoint, we would say--we would have 
some concerns if we change and try to manipulate the river to 
meet other requirements of the ecosystem.
    The Chairman. Do you think that there might be a 
potential--I assume when you're going through the relicensing 
of your dams that there was some sort of litigation involved 
one way or the other, is that correct?
    Mr. Webb. Yeah, I wouldn't say litigation, but we had 
several commitments that we made through our relicensing. And 
this is where I think it's been successful. Part of it is the 
bypass physically from the hydro systems, but also a lot of 
commitments with hatcheries. You know, the Chief Joe 
partnership, up in Penticton, you know, our acclamation process 
at Mason Creek, Carlton.
    So we've made a lot of commitments through our relicensing 
that now, what I'm seeing is really the positive steps of 
actually seeing it happen and actually constructed, and next 
year actually having production in those hatcheries and 
acclamation sites.
    The Chairman. I may want to come back to that in another 
round, but I want to ask Mr. Reimann and Commissioner McCart, 
we've had a treaty that's been in place for 50 years and it's 
silent on irrigation and silent on navigation. You expressed 
my--you've heard my concern about adding a new element in 
there.
    Just give me your thoughts of adding it. Would it be 
logical to add an element of irrigation or should we be silent, 
recognizing that for 50 years it's worked fairly well? I'll 
start, Mr. Reimann, we'll start with you, and Mr. McCart.
    Mr. Reimann. I guess we could--if we stay silent on it, the 
problem is--you're from this area, and if you look at where we 
farm out on the Snake River, there's nothing out there. It's 
called Poverty Flats. It's called that for a reason. It raised 
five bushel of wheat. We produce--and I--and that's a small 
amount, 640,000 people just on our crop alone, and we're a 
small potato grower.
    You know, the term ``ecosystem,'' we've changed the 
ecosystem. We've changed it for the better. If you take out the 
dams, we can take it back to where it was before, but we've 
improved it, and we need to learn to live with this new 
ecosystem we've created.
    And irrigation is food, it's life. I mean, let's face it, 
we're not--none of us in any job we do, I don't care if you're 
a farmer or a legislator, we need farms, we need water, we need 
water for all of us to survive. It's a simple fact that a 
person could live on two things, potatoes and milk. You could 
live on that the rest of your life. And both of them require 
lots of water.
    The Chairman. Mr. McCart, I'd like you to briefly respond 
to that.
    Mr. McCart. I do believe it would be important to have 
irrigation as an element of the treaty. I don't believe it 
needs to be a primary element, as hydropower and flood control 
need to be, but I think it does need to be an issue.
    It is vital to our economy, it is part of our customs and 
cultures and, like I alluded to in my testimony, I believe it 
comes down to a national security issue. We have to be able to 
produce food. And without the irrigation, this area would not 
succeed in food production at the level we do now.
    The Chairman. OK. My time has expired. Recognize the 
Ranking Member.
    Mr. DeFazio. Well, Mr. Chairman, just to kind of pursue 
that part, I'm a little puzzled, actually, because, I mean, we 
see a lot of these kind of resolutions in Congress where they 
have a whole bunch of whereas's, which I always ignore, to tell 
the truth, because they always sound high and mighty and 
usually don't mean anything.
    But then you get to the point of, you know, sort of getting 
it resolved, and that's where you get the action items. And 
just following up on this, because I certainly recognize the 
importance of irrigation, you know, I was substantially 
involved a number of years ago in dealing with the Federal 
investment and partnering with irrigators in terms of trying to 
limit the diversion of fish into irrigation activities, and I 
felt that that was a good investment by BPA and the Federal 
Government, and we have some obligation to do that.
    But when I look at the general principles versus the 
recommendation details, I do see under, you know, water supply, 
which was referenced by one of the witnesses, that, I mean, the 
second thing is talking about irrigation as a long and 
important history for our production purposes. Need will only 
increase as this region continues to grow and as food supply 
and security continue to grow in importance. Operations under a 
modernized treaty should recognize irrigation as an important 
authorized purpose of the basin.
    So I think, you know, we've got some--I mean, everybody's 
going to read into this fairly vague document--which is what it 
is, it's fairly vague--what they want. But I, for one, would 
not want to ignore irrigation, but I think there is some 
significant weight to put on it in there. I think, Mr. McCart, 
were you the one who mentioned that there was water but didn't 
feel it was adequate? Where they recognize that part?
    Mr. McCart. Yes, sir. I was working off the draft document 
that was out, since the final hasn't been released, to my 
knowledge, yet.
    Mr. DeFazio. Well, is that the December--or maybe, yeah, 
what date is today? Oh, OK. Yeah, well, I guess this one maybe 
hasn't been produced. This one is dated December 13th, so----
    Mr. McCart. I haven't seen that document yet, sir.
    Mr. DeFazio. Well, to tell the truth, I hadn't, either. 
So----
    Mr. McCart. So if, in fact, they did add that item, I am 
happy that it's there.
    Mr. DeFazio. Well, I think you have a legitimate concern. I 
mean, this is a tough balancing act here. This river, like I 
said at the beginning, we all love it.
    Now, let me ask just sort of a general question for 
everybody. Anybody think we need to terminate or it'd be 
desirable to terminate?
     [No response].
    Mr. DeFazio. OK. Anybody--I think we've got at least one 
outlier here--feel that we're not overpaying on the 
entitlement? I think there's someone who kind of said that in 
their testimony. Do you want to--Mr. Haller, do you--why do you 
feel that?
    Mr. Haller. Well, I'm not sure that overpaying is the 
right--is the right word there. As I had mentioned, I do 
acknowledge that there is legitimate concern over the 
calculation of that entitlement benefit, but I do think that a 
thorough cost-benefit analysis of all the benefits that the 
treaty provides to both nations would benefit the dialog 
between the countries, and I think that would reveal, you know, 
what's really going on in terms of those costs and benefits and 
where they're accruing.
    Mr. DeFazio. Yeah, I'm not an expert on the issue, but I 
did--when I did the tour 2 years ago this last spring, it was 
the year that was specifically mentioned as having provided--I 
can't remember how many billion dollars in flood control 
benefits. But the folks I traveled with and the people we 
talked to actually on both sides of the border said, actually, 
they didn't operate the system any differently in that high 
water year than they would have without the provisions in the 
treaty.
    I mean, they had built out their side so much and it's so 
different now, that they are optimizing their returns over 
there, and yet they are, you know, in another place saying, 
we've got this $9 billion worth of flood problems. Yes, it's 
true, but that's because of dams that they built which we 
financed by overpaying initially so they would build those 
dams, recognizing that, and they're built and now they're 
optimizing their use, so----
    OK. Well, anyhow, that's just sort of an editorial comment 
on a question. And then let's--I just wanted to, if everyone 
could sort of briefly say what they think is good or bad about 
the discussion of ecosystem. Because I think, again, it's a 
perception among people that it's something that we're not 
doing now, you know, or that we won't continue to do in the 
future or we're not going to want to enhance in the future.
    So just start with Mr. Corwin, what's your comfort level 
here with just--again, you, unfortunately, probably haven't 
seen this either, and we're--the phraseology is considerably 
different than the earlier draft. And I didn't know this wasn't 
publicly available, I'm sorry.
    Mr. Corwin. Thank you, Mr. Ranking Member.
    The U.S. Entity did release to at least some of the 
regional parties, the Sovereign Review Team and others that are 
on their distribution list, a draft from November, in mid-
November, that catches, I think, some of what you're referring 
to in this draft that's expected later this week. And there 
were some positive movements in there, including the language 
on irrigation, more specifically, and others.
    There's also, to get to your question, there's a re-
ordering that seems to emphasize needing to get the Canadian 
entitlement rebalanced, as opposed to having this ecosystem 
issue up-front which was a new piece added to the 
recommendation.
    The ecosystem, though, I think you alluded earlier to a 
vision that I think the Entity's striving toward, of firming up 
what's being done already and then what potential other 
changes. The problem that comes up is that it does raise a lot 
of questions. One was earlier raised, what's domestic versus 
appropriately in an international treaty? Cross-border flows 
are international, but other pieces may not be. Canada, then, 
raises a question, so what's the real mechanical need, does it 
need to be in this treaty? That's a good question.
    Our concern, if there's going to be ecosystem pieces 
included in the discussion, our concern is how do they 
interplay with what's already being done? Are they--do they 
have a scientific basis? Are they costed out? Do they overwhelm 
the need to reduce power costs out of this discussion? And, as 
you said, it's such a vague document and short, a lot of that's 
pushed forward into an uncertain area moving forward.
    So are there unintended consequences? It's just--it's 
something that's going to need a lot more work, and that's why 
we want to stay very involved in the process moving forward.
    Mr. DeFazio. Thank you. I've exceeded my time. Thank you, 
Mr. Chairman.
    The Chairman. I want to--Mr. Haller, you alluded to this, I 
believe, in your testimony or in your written statement, about 
the makeup of the Entity. And you've heard some of the other 
panelists have some concerns about the Entity, Commissioner 
McCart mentioned about the local involvement, for example.
    Are you aware of any effort by agencies within the 
administration to change the makeup of the entities as we move 
forward?
    Mr. Haller. No, I'm not aware. We have vocalized that 
informally to some of the agencies, but, quite honestly, I 
think their workloads, they would like to keep away from it for 
as long as possible.
    The Chairman. But you thought, at least you alluded to the 
fact that you thought it should be expanded from your 
perspective.
    Mr. Haller. Yes, I do believe that we need the expertise of 
those agencies or tribes to represent ecosystem function, yes, 
in the treaty negotiations.
    The Chairman. Specifically ecosystem functions?
    Mr. Haller. Correct, yes.
    The Chairman. OK. Now, would you share Commissioner 
McCart's concern that local governments did not have a seat at 
the table, at least in his view, as----
    Mr. Haller. Well, I would be concerned if I truly felt 
that--I think that the stakeholder process actually has been 
run fairly well, fairly inclusively. Not everyone, 
unfortunately, has been able to get the level of engagement 
that the sovereigns have. That includes the NGOs, as well, so I 
share some of those concerns.
    The Chairman. Let me just kind of give you--I know that 
that new draft, and I, too, just became aware of that, and I 
know that that ecosystem language was--has been tapped down a 
bit. But generally what concerns me, and I'll just speak of 
where I--we've had 50 years of having this treaty in place. I 
honestly cannot say in the time that I've had the privilege to 
represent this area in Congress that there has been an 
outpouring of people coming to me saying this treaty is 
absolutely broken and we really need to change it.
    In fact, moving into the 10-year window of renegotiation 
has been somewhat seamless, until--until the first mention of 
expanding from the two basic parts. And so--and that's why I 
asked the question about irrigation and navigation. Probably a 
good analogy is the U.S. Constitution is pretty short, and 
that's the law of the land. Contrast that with our tax code.
    So do you want to get to a point where you have a treaty, 
then, adding a whole bunch of elements that can be interpreted 
or misinterpreted in the future? That's the question that, you 
know, from my perspective, as we move forward on this. So let 
me ask that question, posit that question in a way for all of 
you, if you would kind of respond to this.
    Mr. Corwin, we'll start with you and just go down the line.
    Mr. Corwin. Could you restate that question just briefly?
    The Chairman. Well, the analogy that I used, and again, 
was--you've heard my concern about the ecosystem being part of 
the treaty. That has been toned down, and I recognize that, in 
the latest draft that will be submitted to the State 
Department. Nevertheless, I mentioned that in the time that 
I've had the privilege of having this job, I don't recall a 
whole lot of controversy about the treaty until the first draft 
came up introducing the third element indication to hydropower.
    So my question, and using the Constitution as an analogy, 
which is a pretty short document compared to the tax code, 
would it be better to have something that is more 
constitutional-like than a tax code in a treaty? I guess that's 
the way I would say it.
    Mr. Corwin. Yes. Thank you, Mr. Chairman, for the question. 
I think it's a--it is a difficult question, but it raises the 
right issue. The treaty itself isn't that long, the original 
treaty isn't that long. It's only 20 pages, I think, and then 
it has attachments. So the more you--the more you complicate 
it, the more you may have disputes that arise.
    And the other thing about adding new pieces is, remember, 
part of our--part of the critique of the original treaty is it 
wasn't able to evolve over time. It locked in these assumptions 
which now don't make sense 50 years later. If you do that with 
other things, especially on the ecosystem's side, there's a big 
ethic of adaptive management. Things change over time. So that 
is a good question that you raise.
    The Chairman. Good. Real quickly, Mr. Webb, if you can----
    Mr. Webb. Just, the only thing I would add is what the 
General stated in the first panel, that I think part of it is 
maybe the recognition of past practices that we've done, that 
there may be some sense to that or science. But other than 
that, I do agree with Scott that anything you put in writing, 
after a day, it's history and more--you know, when you add 
years to it, it can become a problem for the future if we have 
another treaty past 2024.
    The Chairman. OK. Mr. Crinklaw?
    Mr. Crinklaw. Yes, Chairman Hastings. I'd keep it as simple 
as possible, do the original two purposes, which is power and 
flood control. To add anything else to it, which is the third 
leg, ecosystem functions, I think, just gets in the way of 
reaching a conclusion with or without it.
    The Chairman. OK. Mr. Reimann?
    Mr. Reimann. That's an excellent point, Doc. I'll tell you, 
that's why I mentioned that one-page contract that we still 
work on three generations later. The simpler, the better. If it 
could be one page, we'd probably survive a lot better than 
complicating it. So, good point.
    The Chairman. Mr. Haller?
    Mr. Haller. I think something as important as coordinating 
the management of water and power production should not be open 
to interpretation. And so ecosystem function should be well-
defined in what that means in the operations going forward.
    The Chairman. OK. Mr. Amos?
    Mr. Amos. I guess my concern would be if you enter that in 
the treaty, you could, perhaps, hamstring yourself in the 
future by certain parameters that may not be met or may change. 
I think as it is now, we've met--we've risen to the challenge 
and met the ecosystem needs, and I think it provides more 
flexibility without having it a substantial part of the treaty.
    The Chairman. Thank you. Commissioner McCart?
    Mr. McCart. I think one of the advantages of the treaty 
that we have in place is the fact that it's been very short and 
to the point, allows for a lot of flexibility as time has 
changed. And where I would--I would like to see things that 
we're commonly doing now mentioned, I'm not sure we have to 
elaborate on any of them, and leave the treaty as short and 
flexible as possible, much as the Constitution is.
    The Chairman. OK. Thank you. Mr. DeFazio?
    Mr. DeFazio. Well, I like those. It seems that we had some 
consensus there, to a great extent, and I will say, you know, I 
do fear, personally, and I'll express it here, because I think 
it will be of great value in the future, that essentially we 
are sending--my recommendation since the beginning has been 
that what we send as regional recommendations should be as 
succinct and as subject to as little interpretation as possible 
by the State Department, since they will be the principle 
entity negotiating with the Canadians.
    And my fear is that the State Department and, say, the 
Department of Commerce, you know, who no one has mentioned as a 
party to this, have much bigger fish to fry than the interests 
of the Pacific Northwest, whether they're environmental 
interests or economic interests. And I worry about being traded 
off for something to get the Canadians to go along with 
something in the trade--Trans-Pacific Trade Partnership or some 
other thing.
    So I think we have to be very circumscribed in our 
recommendations to the State, and we've got to keep them on 
that circumscribed basis. And, you know, I think there is 
consensus, even with Mr. Haller, that we really need to 
scrutinize what the value of benefits is on both sides of the 
border. Everyone here has agreed we don't want to terminate, we 
want to renegotiate, and we want to look toward the future.
    But there's also the whole reality of the economic impact 
and there are competing demands here because some of what 
advocates for fish would like to have would, say, increased 
spill, has a cost. And the question is, who bears the cost? And 
thus far, all the costs of the system have only been borne by 
Northwest ratepayers, which isn't true in any other attempt by 
the government of the United States to recover a species.
    You know, all of the others have the Federal Government 
carrying most of, if not all, of the burden. No other region 
has been called upon for this. And so, you know, I--that's 
another concern I have as we go forward.
    But I think we can accommodate with this, the idea about 
adaptive management, I mean, I don't look at these as, you 
know, the treaty as fixed. And it hasn't been. I mean, it has--
it has changed and now we're looking at taking some of the 
changes that have been in place for a number of years and 
giving them the certainty, as BPA and the Corps talked about, 
in recognition of the treaty.
    But I don't think we should try to set flow numbers or 
anything specific in the stone of a treaty, that that is 
potentially disastrous, particularly the climate change and 
other conditions that we can't even anticipate.
    And so I don't really have any other questions, Mr. 
Chairman. I think we've covered some good ground here, you 
know, and it's the beginning of a process that hopefully will 
come out well and hopefully won't have to be christened by our 
Senate.
    The Chairman. We can hope that, but we know it will.
    I want to also mention that outside the door, there are 
comment sheets so anybody in the audience that wants to comment 
on this, feel free to do so. I think it is self-explanatory 
what they say.
    I don't have any other questions, but I will associate 
myself with my Ranking Member's comments. This is going to be a 
work in progress, and I, too, am concerned because on a regular 
basis, as Mr. DeFazio said in his opening statement, regardless 
of administration, people look to what we have here in the 
Northwest with our power generation very enviously, not 
recognizing the fact that, of course, we take care of our 
region.
    And so with that uniqueness that we have and a treaty 
that's going to be negotiated from Washington, DC, to someplace 
else is fraught for some potential problems. So I think one of 
the reasons why I wanted to have this hearing earlier on, even 
though we still have 10 years before the consummation of this 
treaty, I think it's important to start that dialog as soon as 
we possibly can. That was the reason why we wanted to have this 
hearing here.
    So I want to thank, again, all of you for your testimony 
and for your input. Many times there are questions that come up 
after a hearing has been adjourned. If that happens and you're 
contacted, we'd certainly ask you to elaborate on whatever 
question we have and that, too, will be part of the record.
    So if there's no further business to come before the 
committee, the committee stands adjourned.
    [Whereupon, at 11:00 a.m., the committee was adjourned.]

                                 [all]
                                 
                                 
</pre></body></html>
